<html>
<title> - KEEPING PACE WITH TRADE, TRAVEL, AND SECURITY: HOW DOES CBP PRIORITIZE AND IMPROVE STAFFING AND INFRASTRUCTURE?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 KEEPING PACE WITH TRADE, TRAVEL, AND 
                 SECURITY: HOW DOES CBP PRIORITIZE AND 
                  IMPROVE STAFFING AND INFRASTRUCTURE?

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2016

                               __________

                           Serial No. 114-63

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
22-756 PDF                     WASHINGTON : 2016                        
                               
________________________________________________________________________________________                               
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8becfbe4cbe8fef8ffe3eee7fba5e8e4e6a5">[email&#160;protected]</a>  

                         
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 
                                 
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                   Martha McSally, Arizona, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Jeff Duncan, South Carolina          Brian Higgins, New York
Lou Barletta, Pennsylvania           Norma J. Torres, California
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                   John Dickhaus, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairman, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina........................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Eugene Schied, Acting Executive Assistant Commissioner, 
  Office of Enterprise Services, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Joint Prepared Statement.......................................    13
Ms. Linda Jacksta, Assistant Commissioner, Office of Human 
  Resources Management, U.S. Customs and Border Protection, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    10
  Joint Prepared Statement.......................................    13
Mr. John P. Wagner, Deputy Assistant Commissioner, Office of 
  Field Operations, U.S. Customs and Border Protection, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    11
  Joint Prepared Statement.......................................    13
Mr. Michael Gelber, Deputy Commissioner, Public Buildings 
  Service, U.S. General Services Administration:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23
Mr. Anthony M. Reardon, National President, National Treasury 
  Employees Union:
  Oral Statement.................................................    25
  Prepared Statement.............................................    26

 
KEEPING PACE WITH TRADE, TRAVEL, AND SECURITY: HOW DOES CBP PRIORITIZE 
                AND IMPROVE STAFFING AND INFRASTRUCTURE?

                              ----------                              


                        Tuesday, April 19, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairman of the subcommittee] presiding.
    Present: Representatives McSally, Duncan, Hurd, Higgins, 
and Torres.
    Also present: Representative Payne.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine CBP's 
efforts to improve staffing and port of entry infrastructure 
needs.
    I recognize myself now for an opening statement. Before we 
begin, I would like to offer my condolences for Border Patrol 
Agent Jose D. Barraza. Yesterday morning, Agent Barraza, a 
canine handler involved in a vehicle accident with his canine 
Vino, and he was fatally injured. Border Patrol Agent Barraza 
was assigned to the Sierra Blanca Station of the Big Bend 
sector. He is survived by his wife, Donna Barraza, his 2 sons 
Joey and Josh Barraza, and his mother Tammy Delgado, all of El 
Paso. Our thoughts are with his family in this difficult time, 
and we thank him for his service.
    U.S. Customs and Border Protection's job is to make sure 
passengers and cargo that power our economy keep moving while 
keeping bad things and bad people out of the country. These 
missions require 2 basic prerequisites: An appropriate number 
of well-trained CBP Officers to process travelers and trade, 
and a modernized infrastructure to accommodate and channel the 
traffic so that it moves across the border quickly and safely.
    However, CBP is seriously understaffed, despite Congress' 
recent infusion of dollars to hire an additional 2,000 
officers. Land ports of entry across the country are in dire 
need of expansion and renovation to keep pace with increasing 
demand and security requirements.
    CBP is well below its Congressionally-mandated staffing 
level by more than 950 officers and 1,300 Border Patrol Agents. 
Even with a recent push to hire more officers, hiring is only 
barely keeping up with officer attrition. We are essentially 
treading water.
    CBP's internal workflow staffing models show that we need 
more than 2,000 CBP Officers above what CBP currently has on 
board, well above even what Congress has appropriated. Once CBP 
delivers the now-late staffing report as required under the 
recently-enacted CBP Authorization Act, Congress will have a 
clearer picture of where the needs are the greatest.
    Filling staffing shortages is a challenge for several 
reasons. For starters, just last year, it took more than 460 
days, on average, in 11 distinct steps to on-board a new 
officer or agent. Today, it is only marginally better. The 
process is down to 6 months, but I think that is just for where 
we have pilot programs, so I would like to hear some 
clarification on that. This is still a very long time. We are 
losing far too many good applicants who just throw up their 
hands and move on because they have given up on the process.
    Pre-employment polygraph examinations required by the Anti-
Border Corruption Act of 2010 significantly reduced the number 
of applicants who make it through the process, including a 
disturbingly high number of seemingly-qualified combat 
veterans. I want to make sure we are vetting potential 
applicants thoroughly without subjecting them to a process that 
is adversarial without purpose.
    Attrition is also something that should concern CBP and 
concerns us. When we have good officers and agents leaving the 
force in significant numbers and the hiring process is not 
keeping pace, we must look for novel way to retain these 
professionals. At the current hiring rate, it takes between 100 
and 150 applicants to go through the process to just hire one 
agent or officer. This means CBP needs to have hundreds of 
thousands of people to apply just to meet their current needs.
    Last year, President Obama signed a bill that I authored, 
the Border Jobs for Veterans Act. This was my first bill signed 
into law, by the way. This law allows the hiring of qualified 
veterans on an expedited basis and establishes programs to 
actively recruit military veterans to work as CBP Officers. I 
look forward to an implementation update because we can all 
agree that CBP should be leveraging our military veterans who 
want to continue to serve the country.
    Turning now to infrastructure challenges, there are 167 
land ports of entry Nation-wide. Many are in dire need of 
expansion or modernization. For years, funding for ports of 
entry have been inadequate, considering the magnitude of the 
requirements. If we tally the total requirements for ports of 
entry across the country, it comes out to an astounding $5 
billion.
    How CBP prioritizes land ports of entry construction is not 
as clear as it should be. Under current law, CBP is required to 
present a 5-year infrastructure plan to Congress on a routine 
basis, which I understand will be delivered shortly. What 
Congress is looking for in such a plan is a rational, decision-
making process for selecting and funding infrastructure based 
on specific criteria, impacting the economy, the level of 
traffic, and the necessary security enhancements.
    The main border crossing in my district, located in 
Douglas, Arizona, is a prime example of the confusion that 
exists with the current process. The Douglas Crossing Point is 
1 of 6 ports of entry in Arizona, and the city of Douglas has 
been attempting to secure the approval of the new commercial 
port of entry with DHS since 2012. Unfortunately, determining 
how to further this vital project still remains not only 
relatively unclear, but frustratingly difficult for my 
community. Mexico is my State's largest trading partner, and 
over the past 5 years, shipments south alone have increased 60 
percent. The Douglas port currently accounts for nearly $4 
billion in trade through two-way truck traffic, a figure that 
has grown 5 percent annually since 2010. But what is hard to 
measure is the opportunity costs of inadequate and aging 
infrastructure that causes bottlenecks and long wait lines.
    We may never know how much commerce Douglas is not seeing, 
because the cargo may be shifting to another ports of entry not 
in such need of modernization. Or people that are crossing on 
foot who just decide not to come anymore, because it is just 
taking too long.
    In 2003, the Arizona Department of Transportation 
determined that the existing Douglas port of entry will not 
allow CBP to adequately meet its mission within the next 5 
years. That deadline is rapidly approaching and I am extremely 
interested in moving along projects, whether it is improvements 
or expansions of the existing port, or building a new port 
altogether, that will ensure that commerce continues to move in 
an efficient manner for the citizens in Arizona and also for 
them to remain safe.
    I hope that the witnesses today can help this subcommittee 
find solutions that will ease the staffing shortages and 
prioritize infrastructure spending in a transparent and 
justifiable way.
    [The statement of Chairman McSally follows:]
                  Statement of Chairman Martha McSally
                             April 19, 2016
    U.S. Customs and Border Protection's job is to make sure the 
passengers and cargo that power our economy keep moving while keeping 
bad things and bad people out of the country.
    These missions require 2 basic prerequisites--an appropriate number 
of well-trained CBP Officers to process travelers and trade, and a 
modernized infrastructure to accommodate and channel the traffic so 
that it moves across the border quickly and safely.
    However, CBP is seriously understaffed, despite Congress's recent 
infusion of dollars to hire an additional 2,000 officers. Additionally, 
land ports of entry across the country are in dire need of expansion 
and renovation to keep pace with increasing demand and security 
requirements.
    CBP is well below its Congressionally-mandated staffing level by 
more 950 officers and 1300 Border Patrol Agents. Even with a recent 
push to hire more officers, hiring is only barely keeping up with 
officer attrition. We are essentially treading water.
    CBP's internal workflow staffing model shows that we need more than 
2,000 CBP Officers above what CBP currently has on-board, well above 
even what Congress has appropriated. Once CBP delivers the now-late 
staffing report, as required under the recently-enacted CBP 
Authorization Act, Congress will have a clearer picture of where the 
needs are greatest.
    Filling staffing shortages is a challenge for several reasons. For 
starters, just last year it took more than 460 days, on average, and 11 
distinct steps to on-board a new officer or agent. Today it's only 
marginally better--the process is down to 6 months. That is still a 
very long time.
    We are losing far too many good applicants who just throw up their 
hands, and move on because they have given up on the process.
    Pre-employment polygraph examinations required by the Anti-Border 
Corruption Act of 2010 significantly reduce the number of applicants 
who make it through the process--including a disturbingly high number 
of seemingly-qualified combat veterans. I want to make sure we are 
vetting potential applicants thoroughly without subjecting them to a 
process that is adversarial without purpose.
    Attrition is also something that should concern CBP. When we have 
good officers and agents leaving the force in significant numbers and 
the hiring process is not keeping pace, we must look for novel ways to 
retain these professionals. At the current hiring rate, it takes almost 
100-150 applicants to go through the process just to hire 1 agent or 
officer. This means CBP needs to have hundreds of thousands of people 
apply just to meet our current needs.
    Last year, President Obama signed a bill I authored, the Border 
Jobs for Veterans Act. This law allows the hiring of qualified veterans 
on an expedited basis, and establishes programs to actively recruit 
military veterans to work as CBP Officers. I look forward to an 
implementation update because we can all agree that CBP should be 
leveraging military veterans who want to continue to serve their 
country.
    Turning now to infrastructure challenges, there are 167 land ports 
of entry Nation-wide--many are in dire need of expansion and 
modernization. For years, funding for ports of entry has been 
inadequate, considering the magnitude of the requirements. If we tally 
the total requirements for ports of entry across the country it comes 
out to an astounding $5 billion dollars.
    How CBP prioritizes land port of entry construction is not as clear 
as it should be. Under current law, CBP is required to present a 5-year 
infrastructure plan to Congress on a routine basis, which I understand 
will be delivered shortly. What Congress is looking for in such a plan 
is a rational decision-making process for selecting and funding 
infrastructure based on specific criteria: Impact to the economy, the 
level of traffic, and necessary security enhancements.
    The main border crossing in my district, located in Douglas, AZ, is 
a prime example of the confusion that exists with the current process. 
The Douglas crossing point is 1 of 6 ports of entry in Arizona and the 
city of Douglas has been attempting to secure the approval of a new 
Commercial Port of Entry with DHS since 2012.
    Unfortunately, determining how to further this vital project still 
remains not only relatively unclear, but frustratingly difficult. 
Mexico is my State's largest trading partner and over the past 5 years, 
shipments south alone have increased 60%. The Douglas port currently 
accounts for nearly $4 billion in trade through 2-way truck traffic, a 
figure that has grown by 5% annually since 2010.
    But what is hard to measure is the opportunity cost of inadequate 
and aging infrastructure that causes bottlenecks and long wait times. 
We may never know how much commerce Douglas is not seeing because that 
cargo may be shifting to another port of entry not in such dire need of 
modernization.
    In 2013, the Arizona Department of Transportation (ADOT) determined 
that the existing Douglas POE will not allow CBP to adequately meet its 
mission within the next 5 years. That deadline is rapidly approaching 
and I am extremely interested in moving along projects, whether it is 
improvements or expansions of the existing port or building a new port 
all together that will ensure that commerce continue to move in an 
efficient manner and the citizens of Southern Arizona remain safe.
    I hope that the witnesses today can help this subcommittee find 
solutions that will ease the staffing shortage and prioritize 
infrastructure spending in a transparent and justifiable way.

    Ms. McSally. The Chair now recognizes the acting Ranking 
Minority Member of the subcommittee, the gentleman from New 
York, Mr. Higgins, for any statement he may have.
    Mr. Higgins. I want to thank the Chair, and I am pleased to 
serve as Ranking Member today, particularly given the topic at 
hand, staffing and infrastructure at America's ports of entry.
    My Congressional district consists of portions of Erie and 
Niagara Counties, including the cities of Buffalo and Niagara 
Falls, and sits adjacent to America's maritime border with 
Canada along the Niagara River and eastern shores of Lake Erie. 
Buffalo is home to the Peace Bridge, the busiest passenger 
crossing on the Northern Border, and a crucial link between the 
economy of western New York and southern Ontario and our two 
great Nations.
    Each year, $40 billion in trade crosses the Peace Bridge, 
sparing $227 billion in economic activity. Niagara County is 
home to 3 more international crossings: The Rainbow Bridge, the 
Whirlpool Bridge, and the Lewiston-Queenston Bridge, which are 
all so crucial to travel and tourism in the region. Cross-
border travel, the efficient flow of goods and people across 
the border and security of our ports of entry are vital to the 
communities that I represent.
    Unfortunately, the U.S. Customs and Border Protection's 
Office of Field Operations continues to be understaffed at 
ports of entry based on the agency's own staffing model. 
Staffing shortages slow legitimate crossers and makes it more 
difficult for law enforcement officials to spot the handful who 
may pose a concern.
    In addition to staffing challenges, Customs and Border 
Protection operations at the Peace Bridge are hindered by 
inadequate infrastructure, including insufficient booth 
capacity for a port facility of its size, as well as a 
dysfunctional plaza that results in crossing inefficiencies.
    In my Congressional district, we see the slowdowns, 
particularly on summer weekends as locals and tourists alike 
seek to enter the United States from Canada. That season is 
right around the corner, and I know I will be hearing from my 
constituents and area businesses about their concerns.
    I hope to hear from our CBP witnesses today about what they 
are doing to increase staffing for ports of entry, including 
hiring 2,000 CBP Officers funded by Congress in recent years 
both in the near term and over the long term. Similarly, we 
know that additional investments in port of entry 
infrastructure are necessary to deal with increasing cross-
border traffic and trade in evolving security threats.
    New programs, such as Land Pre-Clearance, will require 
additional infrastructure, but will pay significant returns on 
those investments. I have long been a proponent of pre-
clearance at the Peace Bridge in Buffalo. Because of the unique 
infrastructure location and space constraints we face in the 
Buffalo port of entry, and the existence of sufficient acreage 
on the Fort Erie side, the Peace Bridge was chosen for pre-
clearance pilot in 2004. Now that full pre-clearance is being 
revised, I believe the Peace Bridge would be ideally suited for 
the first Land Pre-Clearance site.
    I was greatly encouraged by the announcement made last 
month by President Obama and Prime Minister Trudeau regarding 
the program, and I am proud to be an original co-sponsor of 
legislation that would provide the legal framework needed to 
move forward with expanded pre-clearance.
    I look forward to hearing from our witnesses about how the 
Department of Homeland Security, the General Services 
Administration with the support of Congress, can properly staff 
and resource our Nation's port of entry, including the ones in 
my Congressional district and those of my colleagues here 
today.
    Finally, I am very glad to be joined by Tony Reardon, 
national president of the National Treasury Employees Union, 
which represents rank-and-file CBP Officers, including many of 
my constituents. Again, I thank the witnesses for joining us, 
and I look forward to your testimony.
    [The statement of Mr. Higgins follows:]
                    Statement of Hon. Brian Higgins
                             April 19, 2016
    My Congressional district consists of portions of Erie and Niagara 
Counties, including the cities of Buffalo and Niagara Falls, and sits 
adjacent to America's maritime border with Canada along the Niagara 
River and the eastern shores of Lake Erie.
    Buffalo is home to the Peace Bridge, the busiest passenger crossing 
on the Northern Border and a crucial link between the economies of 
Western New York and Southern Ontario and our 2 great nations.
    Each year, $40 billion in trade crosses the Peace Bridge, spurring 
$227 billion in economic activity. Niagara County is home to 3 more 
international crossings, the Rainbow Bridge, the Whirlpool Bridge, and 
the Lewiston-Queenston Bridge which are also critical to travel and 
tourism in the region.
    Cross-border travel, the efficient flow of goods and people across 
the border, and the security of our ports of entry are vital to the 
communities I am privileged to represent. Unfortunately, U.S. Customs 
and Border Protection's Office of Field Operations continues to be 
understaffed at ports of entry based on the agency's own staffing 
model. Staffing shortages slow legitimate crossers and makes it more 
difficult for law enforcement officials to spot thehandful who may pose 
a concern.
    In addition to the staffing challenges, CBP operations at the Peace 
Bridge are hindered by inadequate infrastructure, including 
insufficient booth capacity for a port facility of its size, as well as 
a dysfunctional plaza that results in crossing inefficiencies. In my 
Congressional district, we see the slowdowns particularly on summer 
weekends, as locals and tourists alike seek to enter the United States 
from Canada. That season is right around the corner, and I know I will 
be hearing from my constituents and area businesses about their 
concerns.
    I hope to hear from our CBP witnesses today about what they are 
doing to increase staffing for ports of entry, including hiring the 
2,000 CBP Officers funded by Congress in recent years, both in the near 
term and over the long run. Similarly, we know that additional 
investments in port of entry infrastructure are necessary to deal with 
increasing cross-border travel and trade and evolving security threats.
    New programs, such as land pre-clearance, will require additional 
infrastructure but will pay significant returns on those investments. I 
have long been a strong proponent of pre-clearance at the Peace Bridge 
in Buffalo. Because of the unique infrastructure, location, and space 
constraints we face at the Buffalo Port of Entry, and the existence of 
sufficient acreage on the Ft. Erie side, the Peace Bridge was chosen 
for a pre-clearance pilot in 2004. Now that full pre-clearance is being 
revived, I believe the Peace Bridge would be ideally suited for the 
first land pre-clearance site.
    I was greatly encouraged by the announcement made last month by 
President Obama and Prime Minister Trudeau regarding the program, and 
am proud to be an original co-sponsor of legislation that would provide 
the legal framework needed to move forward with expanded pre-clearance.
    I look forward to hearing from our witnesses about how the 
Department of Homeland Security and the General Services 
Administration, with support from Congress, can properly staff and 
resource our Nation's ports of entry, including the ones in my 
Congressional district and those of my colleagues here today.
    Finally, I am very glad we are joined by Tony Reardon, national 
president of the National Treasury Employees Union, which represents 
rank-and-file CBP Officers, including many of my constituents.

    Mr. Duncan. Madam Chairman, I have a brief opening 
statement.
    Ms. McSally. Without objection.
    Mr. Duncan. I have been on this subcommittee for the end of 
my 6th year, and this issue comes up time again. Ronald Reagan 
used to talk about a ``shining city on the hill.'' He said if 
that shining city on the hill had to have walls, then it needed 
to have gates to allow the normal flow of goods, commerce, and 
natural immigration. I want to thank all the leaders that are 
here today testifying for the work they do. Mr. O'Rourke from 
El Paso, Texas, talked extensively on this committee about 
trade at the border, and how important it was to El Paso. I 
know how important it is in Nogales, because I have been there, 
and seen the 18-wheelers lined up on the Mexican side trying to 
come into this country.
    But the vital component is inspection of those 18-wheelers 
to make sure that contraband, illegal aliens, drugs, you name 
it, don't come into this country. It could be, you know, citrus 
greening fruit that doesn't need to come in and infect United 
States citrus. So there is an important component, and so I 
think this is a vital topic. I applaud you for this because 
being from South Carolina, we are about as far away from the 
Southern and Northern Border as you can imagine, but we fully 
understand the threats that are opposed to this Nation that 
could come across, not just across the open border areas, but 
through our normal ports of entry. So they have got a vital 
role to play.
    I will note that in the last 10 years, the number of CBP 
personnel, Border Patrol personnel has doubled to about 20,000, 
I think. I don't know what the optimal number is. I hope we 
delve into that a little bit. Because just increasing manpower 
and not increasing effectiveness of that manpower isn't always 
the answer. Giving them the tools they need, the ability to do 
their job, getting the administration out of their way, and 
allowing them to protect the country because that is what our 
constituents expect.
    So I thank you for this hearing. I look forward to the 
testimony. I appreciate the Ranking Member's comments as well, 
who understands this issue as well. So thank you and I yield 
back.
    Ms. McSally. Absolutely. Other Members of the committee are 
reminded that opening statements may be submitted for the 
record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 19, 2016
    The Committee on Homeland Security has held many hearings over the 
years examining staffing and infrastructure challenges at ports of 
entry. While some progress has been made toward addressing those 
challenges, much more remains to be done to ensure that CBP has the 
staffing and infrastructure necessary to keep pace with travel and 
trade while continuing to secure our Nation's borders in the face of 
evolving threats.
    For example, we know that CBP remains thousands of officers short 
of the number its own staffing model indicates is necessary to staff 
ports of entry appropriately. Members of this Committee, including 
myself, have been asking for years, on a bipartisan basis, for this 
staffing model, but CBP has so far refused to comply.
    As a result, we included a provision in recent CBP authorization 
legislation requiring CBP to provide the staffing model to Congress. 
That legislation was signed into law in February and the staffing model 
was due last month, but to my knowledge it has not yet been provided.
    I want to hear from our witnesses today about when we can expect to 
receive the staffing model because, given how long this committee has 
been asking for the document, it is in fact long, long overdue.
    Also regarding staffing, CBP has had significant difficulty hiring 
the additional 2,000 officers funded by Congress in recent years. While 
I strongly support CBP's efforts to ensure newly-hired officers meet 
appropriate standards, the agency needs to do everything possible to 
recruit, hire, and retain suitable candidates.
    I hope to hear from our witnesses today about the specific steps 
CBP is undertaking to overcome these hiring challenges and the time 
line for getting the remaining officers on board. With respect to 
infrastructure at ports of entry--including at land, air, and sea 
ports--it simply was not built for modern travel, trade, technology, or 
security measures.
    Like much of America's aging infrastructure, we need to invest in 
its modernization to ensure our ports of entry--the gateways to our 
country--are able to welcome legitimate travel and trade while giving 
CBP personnel the tools necessary to help protect us from security 
threats.
    I hope to hear from our CBP and General Services Administration 
witnesses today about how they identify and prioritize needs at ports 
of entry and where our most pressing needs are currently. I am 
particularly pleased that Tony Reardon, the national president of the 
National Treasury Employees Union, is joining us for the first time. 
His members, the men and women of CBP's Office of Field Operations, are 
on the front lines at our ports of entry every day. I look forward to 
hearing their perspectives through him in his testimony today.
    Finally, I would note that we are fortunate to have many Members on 
this committee with ports of entry in or near their districts. These 
Members have a first-hand understanding of and keen interest in CBP 
staffing and infrastructure, and they will add a great deal to the 
discussion here today. I hope our witnesses will be sure to provide in 
a timely way any port-specific information Members may request 
regarding their districts.

    Ms. McSally. We are pleased to be joined today by 5 
distinguished witnesses to discuss this important topic. Mr. 
Eugene Schied is the acting executive commissioner for the 
Office of Enterprise Services at U.S. Customs and Border 
Protection. In this role, Mr. Schied has responsibility within 
CBP for real estate management, including the construction, 
maintenance, and leasing of facilities. Prior to joining CBP in 
November 2006, Mr. Schied was the first deputy CFO for the 
Department of Homeland Security, and also served as DHS's 
budget director from May 2003 until March 2004.
    Ms. Linda Jacksta is the assistant commissioner for human 
resources management at the U.S. Customs and Border Protection. 
Prior to this role, Ms. Jacksta served as the acting deputy 
assistant commissioner for the Office of Internal Affairs. In 
this capacity, she provided leadership and protection for a 
wide variety of functions or programs, including backgrounds, 
and clearances, and employee misconduct investigations.
    Mr. John Wagner is the deputy assistant commissioner for 
U.S. Customs and Border Protection's Office of Field 
Operations. Mr. Wagner formerly served as executive director of 
admissibility and passenger programs with responsibility for 
all traveler admissibility-related policies, and programs, 
including the Trusted Traveler Program, the Electronic System 
for Travel Authorization, the Immigration Advisory Program, and 
the fraudulent document analysis unit.
    Mr. Michael Gelber the is deputy commissioner for public 
buildings service at the U.S. General Services Administration. 
The Public Buildings Service is one of the largest public real 
estate organizations in the world, operating more than 9,000 
owned and leased properties across the United States.
    Mr. Gelber began his career at GSA in 1988 and has held 
positions--several leadership positions including service in 
the northwest and Great Lakes region.
    Mr. Anthony Reardon is the national president of the 
National Treasury Employees Union, a position he was elected to 
in August 2015. A 25-year member of the NTEU, he joined the 
organization in 1990 as the operations manager, and rose to 
become chief operating executive where he oversaw budgeting and 
other financial matters and managed NTEU's day-to-day 
operations, ranging from personnel to information technology.
    The witnesses' full written statements will appear for the 
record. The Chair now recognizes Mr. Schied for 5 minutes to 
testify.

    STATEMENT OF EUGENE SCHIED, ACTING EXECUTIVE ASSISTANT 
 COMMISSIONER, OFFICE OF ENTERPRISE SERVICES, U.S. CUSTOMS AND 
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Schied. Good morning, Chairman McSally, Representative 
Higgins, Members of the subcommittee. Thank you for the 
opportunity to appear this morning to discuss Customs and 
Border Protection's efforts to modernize land port of entry 
facilities in support of our mission to secure, and facilitate 
trade and travel into and out of, the United States. CBP's 
facility management and engineering division is responsible in 
coordination with GSA for the oversight, repair, and 
modernization of CBP's inspectional facilities at our Nation's 
329 ports of entry, more than half of which, as you have noted, 
are located along the U.S. land borders with Mexico and Canada.
    Most CBP land ports of entry of entry were built to support 
the distinct and independent operations of pre-DHS agencies, 
such as U.S. Customs Service, Animal Plant Health Inspection 
Service, and Immigration and Naturalization Service.
    Today, of course, our facilities and our operations are 
consolidated and incorporate state-of-the-art technology, 
professional law enforcement personnel, who maintain the 
efficient and secure flow across border trade and travel.
    The success of these operations depend heavily on the 
condition and operation utility of our inspections facilities. 
Many of the Nation's land ports of entry were built more than 
70 years ago. Even those constructed as recently as 15 years 
ago still require renovation or replacement to meet present-day 
security standards, enforcement, and facilitation technologies, 
and the growing demand of additional processing capability.
    GSA and CBP work cooperatively using a multi-step process 
to plan for a land ports of entry modernization investments. In 
coordination with Federal, State, and local stakeholders, we 
conduct strategic resource assessment to identify individual 
needs at each facility and use a sensitivity analysis to 
ascertain the relative urgency of facility needs Nation-wide. 
As part of this assessment process, we evaluate also the 
environmental, cultural, historic preservation, land 
acquisition requirements, as well as the likelihood of 
obtaining funding.
    We work actively in border master planning; we look at each 
port's activities; we work with State and local stakeholders, 
to determine what kind of inspectional facilities and repairs 
are needed.
    After this thorough assessment, we arrive at a capital 
investment plan that is updated annually to align with 
available funding to address areas of greatest need. Due to the 
extreme budget environment over the last several years, funding 
for facilities has been limited. However, thanks to Congress' 
support in January 2014, CBP received authority to enter into 
partnerships with private-sector and Government entities at 
ports of entry to accept donations of real and personal 
property, including monetary donations and non-personnel 
services.
    This donation acceptance program provides CBP and GSA the 
opportunity to consider donation proposals to address local 
port of entry infrastructure needs, needs which, because of our 
needing to prioritize at a National level, might not otherwise 
be addressed.
    These donations are expected to reduce border wait times, 
increase traffic throughput, create jobs, and adjust critical 
operational and regional order master plan infrastructure 
technology needs.
    CBP also continuously works to develop alternatives to full 
reconstruction, define alternative and innovative ways to 
maximize resources and efficiencies. For example, where full 
construction is impossible, approaches such as stacked booths 
can increase throughput, high and low booths can also 
accommodate the processing of either commercial or passenger 
vehicles.
    These initiatives provide CBP with valuable flexibility to 
quickly adapt to changing port conditions, reduce the overall 
footprint of facilities, and improve the mutually beneficial 
opportunities to meet on-going modernization needs at the land 
ports of entry.
    Chairwoman McSally, Representative Higgins, Members of the 
subcommittee, thank you for the opportunity to testify today 
and I will be happy to answer your questions.
    Ms. McSally. Thank you, Mr. Schied. The Chair now 
recognizes Ms. Jacksta for 5 minutes.

 STATEMENT OF LINDA JACKSTA, ASSISTANT COMMISSIONER, OFFICE OF 
HUMAN RESOURCES MANAGEMENT, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Jacksta. Good morning, Chairwoman McSally, active 
Ranking Member Higgins, and distinguished Members of the 
subcommittee. Thank you for the opportunity to appear before 
you today.
    Throughout my own 30 years of service with Customs and 
Border Protection, I have seen first-hand the impact that our 
employees have on National security and economic prosperity. I 
have a deep sense of commitment and dedication to this 
organization, its mission, and its people. With nearly 60,000 
employees in the United States and abroad, CBP has a massive 
and vitally important job to do. Underpinning that effort is 
CBP's Office of Human Resources Management, and our motto is 
``Border security starts here.'' As someone who has worked in 
CBP's operational environment, that is a responsibility I take 
very seriously.
    Since taking office, my priority has been to strategically 
identify and assess the challenges associated with hiring and 
retaining our Air Marine Agents, Border Patrol Agents, CBP 
Officers, and other mission-critical personnel. We must be 
nimble, adaptive, and innovative to keep peace with an ever-
changing operational landscape.
    I have identified 3 key factors influencing our ability to 
meet our staffing goals, and have developed strategies to 
address each. The first is improving the quantity and the 
quality of our applicant pool; the second is decreasing the 
time to hire; and the third is reducing attrition.
    We have made progress, but clearly, more needs to be done. 
I have established a National front-line hiring program 
management office to integrate stovepiped elements of the 
hiring process and significant improvements have been made.
    I have established a National front-line recruitment 
command to deploy data-driven recruitment strategies to 
increase the quantity and the quality of CBP's applicant pool. 
I am really pleased to report that the number of applicants for 
front-line positions has increased from 40,000 in fiscal year 
2014, to over 115,000 in fiscal year 2015.
    In addition, CBP plans to participate in over 3,000 
recruitment events this fiscal year, almost double the number 
of events from last year. I want to address the hiring of our 
veterans. Through the Border Jobs for Veterans Act, we are 
partnering with the Department of Defense to expedite the on-
boarding of veterans and separating service members into front-
line positions.
    This is groundbreaking work that has the potential to be a 
game-changer for CBP. We are exploring new methods to offer 
reciprocity to veterans for elements of our pre-employment 
process. We are also employing the use of hiring hubs, which 
consolidate multiple steps of our process into a 2-day time 
frame, reducing the overall time to hire by more than 65 
percent. CBP has utilized reassignment opportunities and job 
swap programs and we are exploring other mobility options to 
address attrition.
    It is important to note that we rely on other Federal 
partners for portions of our hiring process, as well as an 
applicant's ability to complete their part of the process in a 
timely fashion. We are also the only Federal agency with a 
Congressional mandate to polygraph 100 percent of CBP's front-
line applicants.
    Chairman McSally, I had the opportunity to read your list 
of core values, among excellence, integrity first, service, and 
teamwork was the phrase ``making it happen.'' I recognized that 
our challenges are significant. However, I am confident that 
with the continued support of this subcommittee and other 
Members of Congress, we will continue to find new and 
innovative ways to make it happen for CBP.
    Chairman McSally, acting Ranking Member Higgins, 
distinguished Members of the subcommittee, thank you for 
holding this important hearing, and I am happy to answer your 
questions.
    Ms. McSally. Thank you, Ms. Jacksta. The Chair recognizes 
Mr. Wagner for 5 minutes.

  STATEMENT OF JOHN P. WAGNER, DEPUTY ASSISTANT COMMISSIONER, 
OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Good morning, Chairwoman McSally, acting 
Ranking Member Higgins, and distinguished Members of the 
subcommittee. It is a privilege to appear today before you to 
discuss U.S. Customs and Border Protection's resource 
optimization efforts to meet the challenge of growing volumes 
of trade and travel to the United States. The Office of Field 
Operation is CBP's front-line entity responsible for securing 
and facilitating international trade and travel at our Nation's 
300-plus ports of entry. Each year, we process nearly 30 
million cargo containers and approximately 380 million 
passengers with trade and travel volumes continuing to rise.
    While the continued increase and lawful cross-border 
commerce is a welcomed benefit for the economy, it also 
presents several complex challenges for an organization whose 
front-line strength does not expand at the same rate. So to 
keep pace, we developed a 3-part resource optimization strategy 
that identified staffing requirements using a workload staffing 
model, streamlines business processes, and No. 3, promotes 
opportunities for public-private partnerships to support staff 
increases and facility improvement.
    Thanks to the support of Congress, the Consolidated 
Appropriations Act of 2014 funded 2,000 new CBP Officers. 
However, the most recent results of our workload staffing model 
factoring in the additional 2,000 officers authorizing 2014 
show an additional need for 2107 officers through fiscal year 
2017.
    As Assistant Commissioner Jacksta highlighted in her 
statement, the Office of Field Operations works closely with 
the Office of Human Resources Management on several initiatives 
to recruit, hire, and retain the highly-qualified men and women 
to secure our border and facilitate trade and travel.
    In addition to efforts to increase staffing, we are also 
transforming our business processes to optimize the resources 
we have by leveraging technology, automating procedures for the 
travelers, and increasing operational efficiency by getting rid 
of paper forms. These business transformation initiatives will 
save CBP an estimated 536,000 inspection hours, an equivalent 
to 453 CBP Officers through fiscal year 2017.
    Business transformation initiative savings also benefit 
travelers crossing in our land ports of entry. With the 
increased use of ready lanes for those with radio frequency 
identification documents, coupled with an increased 
participation in our trusted traveler programs, the National 
average vehicle wait time was 10 percent shorter in fiscal year 
2015 than the previous year. Peak wait times have also 
decreased an average by 30 percent. At the southwest land 
border, the century trusted travelers experience a 73 percent 
reduction in wait times compared with non-participants.
    This year in the land border environment, CBP is working on 
automating the I-94 arrival record, and the commercial truck 
user fee collection process. These initiatives will replace 
inefficient manual processes, decreasing wait times for 
travelers and commercial trucks, and saving critical officer 
inspectional hours.
    While CBP's efforts to modernize inspection facilities, 
improve business processes, and increase the number of officers 
has been successful, the updated workload staffing monitor 
results continue to show a need for additional capability.
    A significant portion of this capability is required to 
support our stakeholders' request for new or additional 
services in infrastructure ports of entry across the country. 
We recognize the potential economic impact for new or expanded 
service and infrastructure, and we very much want to support 
these endeavors. However, due to finite resources, we are not 
able to always accommodate these requests.
    Again, thanks to the support of Congress, CBP recently 
received authority to collaborate with private-sector and 
Government partners through the reimbursable services program 
and the donations acceptance program to address port-specific 
needs for enhanced CBP services and infrastructure improvements 
that otherwise would not have been possible.
    Executive Assistant Commissioner Schied discussed the 
significant opportunities the donation acceptance program 
offers by modernizing inspection facilities. The reimbursable 
services program authority allows CBP to support requests from 
stakeholders for expanding services including Customs, 
agriculture, border security services, and immigration-related 
inspection services at the port.
    At land ports of entry, this authority enables CBP to open 
additional lanes, provide services for extended hours to reduce 
wait times and expedite commercial and personal traffic. In the 
first 26 months of this program, CBP has entered into 
agreements with 28 stakeholders, providing more than 145,000 
additional processing hours at the request of our partners, and 
accounting for the processing of more than 3.5 million 
travelers, and nearly 525,000 personal and commercial vehicles.
    Legitimate travel and trade play a critical role in our 
Nation's economic growth. CBP recognizes its role in sustaining 
such growth. We will continue to strengthen our front-line 
staffing efforts, modernize our facilities and streamline our 
business processes, reform the essential foundation of CBP's 
critical security and facilitation operation at our Nation 
ports of entry.
    So thank you again for holding this hearing today, and I 
look forward to discussing with you further.
    [The joint statement of Mr. Schied, Ms. Jacksta, and Mr. 
Wagner follows:]
 Prepared Joint Statement of Eugene Schied, Linda Jacksta, and John P. 
                                 Wagner
                             April 19, 2016
    Chairman McSally, Ranking Member Vela, and distinguished Members of 
the Subcommittee, thank you for the opportunity to discuss U.S. Customs 
and Border Protection's (CBP) progress in enhancing the security and 
facilitation of lawful trade and travel at our Nation's ports of entry 
(POEs).
    As America's unified border agency, CBP protects the United States 
against terrorist threats and prevents the illegal entry of 
inadmissible persons and contraband, while facilitating lawful travel 
and trade. The Office of Field Operations (OFO) is the law enforcement 
entity within CBP responsible for carrying out CBP's complex and 
demanding mission at 328 ports of entry (POE) Nation-wide and 16 pre-
clearance locations internationally. Resource demands, including 
staffing and infrastructure, at the POEs continue to increase as trade 
and travel volumes continue to grow.
    There are more people and goods coming through our POEs than ever 
before. Since 2009, we have seen growth in both trade and travel and we 
expect these trends to continue. Every year, OFO facilitates the travel 
of hundreds of millions of international visitors to our Nation. In 
fiscal year 2015, CBP inspected more than 382 million travelers at our 
air, land, and sea POEs, an increase of 2 percent from the previous 
year, and an increase of 12.5 percent since fiscal year 2011. CBP also 
processed more than $2.4 trillion in imports in 2015, while enforcing 
U.S. trade laws that protect the Nation's economy and the health and 
safety of the American public.
    The facilitation and security of lawful travel and trade is a 
priority for CBP and we are taking steps, working closely with our 
stakeholders, Congress, and our Federal partners to increase CBP 
Officer (CBPO) and CBP Agriculture Specialist (CBPAS) staffing, 
streamline our business processes, improve our POE facilities, and 
enhance our security and facilitation efforts. We recognize that CBP's 
role in securing and facilitating international trade and travel is 
critical to the growth of our economy and the creation of more jobs.
                         port of entry staffing
    To address the on-going challenge of securing and facilitating 
growing volumes of trade and travel, CBP developed a 3-pronged Resource 
Optimization Strategy that: (1) Identifies POE staffing requirements 
using a Workload Staffing Model; (2) ensures the efficient use of 
resources by optimizing current business processes; and (3) explores 
funding strategies to support staffing increases.
    Thanks to the support of Congress, the Consolidated Appropriations 
Act, 2014, Pub. L. No. 113-76, included funding for 2,000 new CBPOs. 
These additional officers will be allocated utilizing the Workload 
Staffing Model and directed to those ports with the greatest need. 
OFO's Workload Staffing Model employs a rigorous, data-driven 
methodology to identify staffing requirements by considering all the 
activities performed by CBPOs at our POEs, the volume of those 
activities, and the levels of effort required to carry them out. The 
most recent results of the Model--factoring in the additional 2,000 
CBPOs from the fiscal year 2014 appropriations--show a need for 2,107 
additional CBPOs through fiscal year 2017. Additionally, the 
Agriculture Resource Allocation Model, CBP's analytical framework for 
informing CBPAS staffing decisions at POEs, shows a need for an 
additional 631 CBPAS through the same period.
    With nearly 60,000 employees in the United States and abroad, CBP 
is the Nation's largest Federal law enforcement organization and 
requires a highly-skilled workforce capable of successfully meeting the 
agency's mission requirements. CBP employs a rigorous hiring process in 
order to ensure that it hires only those applicants who have the 
qualifications and suitability necessary to meet CBP's mission 
requirements. CBP's Office of Human Resources Management (HRM) works 
diligently to recruit, hire, and retain the men and women serving in 
front-line positions that secure the Nation's borders and facilitate 
lawful trade and travel, which is so critical to the Nation's economic 
prosperity.
Front-line Hiring and Challenges
    CBP has made some progress in meeting front-line hiring goals; 
however, additional work remains. The agency continues to face 
significant challenges in meeting our staffing goals to include 
applicants not being able to successfully pass requirements of the CBP 
hiring process, law enforcement attrition, and an insufficient number 
of applicants applying for front-line positions. CBP's significant 
size, scope, and depth of mission--domestically and internationally--
requires a considerable number of personnel in front-line positions and 
CBP must employ only the highest caliber of individuals.
    CBP's hiring process for front-line personnel is intentionally 
rigorous. Individuals must successfully complete an entrance exam, 
qualifications review, interview, medical exam, drug screening, 
physical fitness test, polygraph examination, and a background 
investigation. The hiring process is challenging for most applicants 
and a large number do not meet the agency's employment requirements.
    The Anti-Border Corruption Act of 2010, Pub. L. No. 111-376, 
requires CBP to administer polygraph examinations to all applicants for 
law enforcement positions. However, the number of Federally-certified 
polygraph examiners is limited, leading to competition among all 
agencies to fully staff polygraph programs. The polygraph examination 
helps to ensure the selection of only those applicants who are most 
suitable for a law enforcement position. While we have seen that the 
requirement to undergo a polygraph examination has caused some 
individuals to forego the application process, the polygraph program 
has also elicited many admissions of wrongdoing, which would not have 
been otherwise detected.
    The polygraph examination is only one of several factors that have 
challenged CBP's ability to expeditiously hire front-line personnel. 
Another factor is that some individuals simply do not wish to take an 
entrance exam. Recent data shows that more than 40 percent of CBP 
applicants failed to either schedule or show up to take the entrance 
examination. Additionally, it can be difficult to find applicants who 
are interested in working in remote locations, where there may be 
limited medical care, schooling, and opportunities for spousal 
employment.
    External factors also influence CBP's ability to reach its staffing 
goals, including cyber intrusions and vulnerabilities, which have 
brought the hiring process to a halt for extended periods. For example, 
thousands of applications were inaccessible for processing during a 6-
week shutdown of the Office of Personnel Management's (OPM) e-QIP 
system in 2015. Additionally, several of CBP's background investigation 
vendors experienced data breaches or had cybersecurity vulnerabilities 
identified, which severely diminished CBP's capacity to initiate 
background investigations. Although these issues were all temporary, 
the processing delays that resulted from such circumstances generated 
backlogs that often take longer to resolve than the duration of the 
particular interruption.
    Moreover, CBP's hiring is impacted by the limited availability of 
qualified and suitable applicants. Societal views and changing 
generational values are making it more difficult to attract suitable 
applicants to the law enforcement profession, such as CBP's front-line 
positions. A recent Rand Corporation study on Police Recruitment and 
Retention, commissioned by the U.S. Department of Justice, found that 
less than half of American youths consider a police department or law 
enforcement agency a ``desirable'' or ``acceptable'' place to work.\1\ 
The public scrutiny of law enforcement officers, combined with the 
requirement to work variable schedules and long shifts, and in some 
cases, in smaller or remote areas of the country, are all potential 
reasons why individuals under age 37 \2\ may be less likely to apply to 
law enforcement positions.
---------------------------------------------------------------------------
    \1\ Wilson, Jeremy M. et al. Police Recruitment and Retention for 
the New Millennium: The State of Knowledge. RAND Corporation, 2010. 
Web. 1 Apr. 2016.
    \2\ The Secretary of the Department of Homeland Security has 
established the maximum entry age for an original appointment to a 
position as a law enforcement officer (such as a BPA or a CBPO) to be 
the day before an individual's 37th birthday. However, acting in 
accordance with the law, CBP waives the maximum entry age for veterans' 
preference-eligible applicants.
---------------------------------------------------------------------------
    Compounding the limited applicant pool, CBP faces substantial 
competition with other law enforcement agencies for quality applicants. 
The military, other Federal, State, and local law enforcement 
organizations, and first-responder agencies recruit similar individuals 
and in some cases, offer higher entry-level salaries, may have a 
shorter, less rigorous hiring process, may not require individuals to 
relocate, and may offer more desirable work locations. As a result, the 
market for applicants is highly competitive.
    In addition to the hiring challenges, CBP must backfill positions 
lost through attrition. The attrition rates for CBPO and BPA in fiscal 
year 2015 were 3.0 percent and 5.5 percent respectively, requiring that 
CBP hire approximately 2,000 additional front-line personnel annually 
just to manage losses. Uncertainties surrounding pay and compensation, 
coupled with less-than-desirable duty locations, have driven BPA 
attrition to a point where losses were significantly outpacing gains.
Front-line Hiring Strategies
    To address front-line staffing challenges, CBP established a Front-
line Hiring Program Management Office (PMO) that brings the agency's 
subject-matter experts together to develop an integrated and holistic 
approach to recruiting and hiring front-line personnel. This team is 
working collectively to integrate previously stove-piped elements of 
the hiring process and has already made a number of significant 
improvements, such as developing a front-line hiring data model, which 
is the first of its kind for CBP. This model provides a high degree of 
fidelity for the front-line hiring process time lines, identifies 
potential obstacles in the process, and provides estimates of hiring 
projections. This model has been the foundation of CBP's front-line 
hiring process improvement efforts.
    The PMO has taken a systematic approach toward addressing the 
agency's staffing requirements, through the identification of 4 key 
factors: (1) Increasing the Quality and Quantity of the Applicant Pool; 
(2) Reducing the Time-to-Hire: (3) Department of Defense Collaboration 
(DoD); and (4) Reducing Attrition.
Increasing the Quality and Quantity of the Applicant Pool
    A key component of CBP's efforts is increasing the number of 
applicants in the pre-employment process. CBP recently established the 
National Front-line Recruiting Command (NFRC) to coordinate and 
strengthen recruiting efforts. This team, comprised of CBP front-line 
personnel and mission-focused experts, developed a National Front-line 
Recruitment Strategic Plan that outlines the strategic objectives, 
critical National and local level partnerships and robust outreach 
strategies for front-line recruiting. CBP employs data-driven 
techniques to identify locations, event types, and advertising 
strategies in order to most directly and efficiently reach individuals 
potentially interested in careers with CBP. Through the NFRC, CBP 
partners with industry marketing and recruitment experts to leverage 
innovative business practices and identify ways to promote diversity 
within CBP's front-line workforce. As a result of this team's work, CBP 
was able to increase the number of BPA and CBPO applicants from 
approximately 40,000 in fiscal year 2014 to over 115,000 in fiscal year 
2015. Additionally, CBP is on target to more than double the 1,578 
recruitment events in fiscal year 2015 this coming year.
Reducing the Time to Hire
    Currently, it takes over a year for a potential front-line employee 
to move through a process of more than 10 steps before an offer of 
employment can be made. However, through the recent implementation of 
process improvements, the average time to hire is continuing to 
decrease. For example, CBP recently piloted several iterations of a 
``Hiring Hub'' concept, which integrates and consolidates many steps 
and several months of the hiring processes into a 2-day time frame. 
These Hiring Hubs, which consolidate the interview, polygraph, 
provisional clearance determination, and employment offer, have 
decreased processing time to an average of 160 days, reducing the time 
to hire by over 60 percent.
    In addition to the hiring hubs, which will be expanded throughout 
fiscal year 2016 and 2017, CBP has implemented a number of additional 
process improvements to decrease an applicant's time in our process. By 
hiring additional personnel for medical adjudications, and by 
streamlining the medical forms, CBP was able to reduce the medical 
portion of the hiring process by an average of 43 days. Likewise, by 
hiring additional polygraph examiners and instituting an abbreviated 
adjudication process, CBP was able to reduce the polygraph processing 
time by over 35 percent. Finally, CBP implemented a ``provisional 
clearance'' policy, which permits applicants who successfully pass the 
polygraph examination without any significant admissions to enter on 
duty to the academy while their background investigation is still on-
going. Since this policy was implemented, over 1,500 individuals were 
granted provisional clearances and were able to immediately enter the 
academy.
Department of Defense Collaboration
    CBP is collaborating with the Department of Defense (DoD) in 
developing new strategies to reduce the time to hire of transitioning 
service members. By taking a holistic approach to our collective 
business processes and leveraging our combined resources, we are making 
progress. Together, we are exploring a new method of reciprocity 
between some elements of the DoD exit process and the CBP pre-
employment process. Specifically, CBP is evaluating the feasibility of 
accepting or granting reciprocity to the scores/results from the 
military service physical fitness tests and medical examinations. 
Additionally, we are reviewing the possibility of offering the CBP 
Entrance Exam via the DoD's Joint Knowledge Online system. This would 
allow service members the opportunity to take the entrance examination 
at any military installation world-wide and would be a first for those 
stationed in overseas locations. Moreover, CBP is currently conducting 
hiring hubs at targeted installations following CBP-specific 
recruitment events. CBP and DoD are exploring the option of formalizing 
this partnership through installation-specific memorandums of 
agreement.
    CBP's overall recruitment approach includes robust strategies to 
recruit veterans and individuals separating from military service. CBP 
works closely with the DoD to increase awareness about CBP employment 
opportunities, as well as the benefits available to transitioning 
service members and veterans. The specific goals of the collaboration 
are to increase target audience awareness of CBP as a prospective 
employer, increase the pipeline of applications for mission-critical 
positions, transform the application process to support the use of 
veteran-specific hiring authorities, and consolidate multiple steps of 
the CBP hiring process at military installations. CBPs goal is to 
streamline the veteran time to hire processing to an average of 90 
days.
    With the passage of the Border Jobs for Veterans Act of 2015, Pub. 
L. No. 114-68, CBP and DoD have enhanced collaboration on hiring 
transitioning service members and veterans for CBPO and BPA positions. 
Veterans currently represent 28.8 percent of the CBP workforce. With 
250,000 to 300,000 members of the Armed Forces separating from military 
service every year, recruiting from this population constitutes a 
critical element in CBP's efforts to fill existing vacancies and 
complete the hiring of the 2,000 new CBPOs, as well as to meet revised 
CBPO manpower requirements outlined in the Department of Homeland 
Security Appropriations Act of 2016. Veterans and individuals 
separating from military service are often equipped with the skills 
necessary to succeed in CBP front-line positions. Through this CBP and 
DoD partnership, we are seeing an increase in the percentage of 
applicants who are found to be initially qualified based on their 
applications. CBP will continue to partner with DoD on major recruiting 
and hiring events with a specific focus on installations with the 
highest numbers of transitioning soldiers. In fiscal year 2015, CBP 
participated in 651 veteran recruitment events and has a target of 
1,000 events for fiscal year 2016.
    While these efforts are still in various stages of implementation, 
CBP has experienced an improvement in applicant awareness and 
engagement. CBP is partnering with DoD transition offices across the 
Nation to provide information sessions and workshops to transitioning 
service members. One early success of the CBP and DoD partnership is 
the creation of CBP's Recruiting Center on Fort Bliss in El Paso, 
Texas. The Fort Bliss Recruiting Center is the first of its kind for 
CBP. The DoD Transition Assistance Program Office provided space for 
CBP's front-line agent and officer recruiters who provide information 
to transitioning service members on a full-time basis.
Reducing Attrition
    Another factor that would improve CBP's ability to reach staffing 
targets is reducing attrition. CBP is employing a multi-faceted 
approach, including the development of surveys to be used as part of 
the out-processing in order to accurately identify the causes of 
choosing to separate from CBP. Additionally, CBP is exploring creative 
ways to utilize pay and compensation flexibilities such as special 
salary rates, relocation and retention incentives, tuition assistance, 
and student loan repayments to incentivize mission-critical personnel 
to remain with CBP. Because mobility and assignment diversity is 
important to CBP's law enforcement personnel, the agency is exploring 
new ways to utilize rotational assignments and reassignment 
opportunities. Some operational offices are utilizing reassignment 
programs and/or ``job swaps'' to offer enhanced mobility and 
developmental opportunities to those who are seeking a change in 
location.
                  ports of entry resource optimization
    While the 2,000 additional officers funded by the Consolidated 
Appropriations Act of 2014 will bring significant support to our 
mission to secure and facilitate trade and travel through our Nation's 
POEs, as we noted above, the most recent results of the Workload 
Staffing Model show a need for 2,107 additional CBPOs and 631 CBPASs 
through fiscal year 2017. Even with the growth in international travel 
and trade, this current need reflects a reduction of 517 CBPOs and 92 
CBPASs from fiscal year 2015 results (2,624 and 723 respectively). This 
reduction is primarily due to CBP's continued focus on transforming all 
facets of OFO operations to increase productivity while reducing our 
reliance on staffing resources. CBP will continue to pursue POE 
infrastructure modernization, business transformation efforts, new 
reimbursement authorities, and partnerships with our stakeholders to 
bridge current and anticipated mission resource gaps.
Business Transformation Initiatives
    Business Transformation Initiatives (BTI) enable CBP to realign 
CBPO and CBPAS resources to priority initiatives, reduce CBP's required 
inspection hours, resulting in a decrease of overall workload 
requirements and equivalent staffing. CBP is embarking on more 
transformative initiatives to expand traveler technologies, implement 
biometrics, automate forms collection, and eliminate duplicative 
processes to save an estimated total of 536,000 inspection hours and 
the equivalent of 453 CBPOs through fiscal year 2017. These 
transformative initiatives and technological advancements provide the 
platform from which CBP can achieve effective and efficient operational 
success in the face of increased border and air traffic, budget 
constraints, and demand for new and expanded services at existing and 
proposed POEs.
    In the air environment, BTIs such as Automated Passport Control 
(APC) and Mobile Passport Control (MPC), which increase primary 
processing capacity, reduce the administrative burden on CBPOs by 
automating parts of the inspection process so they can focus on our law 
enforcement mission, reduce traveler wait times, use airport facilities 
more efficiently, and minimize missed connections.
    In the land environment, despite steady growth in passenger volume, 
especially of travelers crossing in privately-owned vehicles, in fiscal 
year 2015, the National average vehicle wait time was 10 percent 
shorter than the previous year, at 15.6 minutes. Peak wait times have 
also decreased by 30 percent, to 91 minutes. CBP has been able to 
achieve these wait time reductions through increased radio frequency 
identification (RFID) saturation and the corresponding use of Ready 
Lanes, and also through the on-going increase in land trusted traveler 
participation.
    Ready Lanes are dedicated primary vehicle lanes that offer 
expedited inspection for travelers with RFID-enabled documents. Over 38 
million travelers have obtained RFID-enabled documents--which include 
Passport Cards, Enhanced Driver's Licenses, Enhanced Tribal Cards, 
Border Crossing Cards, and Enhanced Permanent Resident Cards, and 
Trusted Traveler Cards (Global Entry, SENTRI, NEXUS and FAST)--and two-
thirds of all Southwest Border crossings are now made with an RFID 
document. Ready Lane traffic share (not including NEXUS and SENTRI 
traffic) has increased from 6 percent in 2010 to 38 percent today. In 
2015, POEs with Ready Lanes have taken measures (such as traffic 
segmentation, improved signage, and more responsive active lane 
management) to increase Ready Lane benefits for participating 
travelers. This year, Ready Lane waits averaged 30 percent less than 
waits in the general lanes.
    While Ready Lanes provide a wait time benefit to travelers, they 
also assist CBP. Since Ready Lanes are more efficient than general 
lanes, they process more vehicles (about 10 more) per hour than general 
lanes. In 2015, the average Ready Lane processed 53.1 vehicles per 
hour, per booth, compared to just 43.5 vehicles in the general lanes. 
This efficiency benefits CBP managers who are constrained by available 
booths (facilities) and staff (labor).
    CBP's Trusted Traveler Programs, such as SENTRI, NEXUS, and Global 
Entry, continue to expedite low-risk, vetted international travelers 
while enabling CBP to focus on those unknown or high-risk travelers. 
All Trusted Traveler participants must be pre-approved and undergo a 
rigorous background check and personal interview before enrollment. In 
fiscal year 2015, at Southwest Border POEs, the average SENTRI crossing 
was 40.7 seconds faster than traditional processing with SENTRI 
travelers experiencing an average of 19.1 minutes less (73 percent) in 
wait times than non-participants.
    In May 2013, CBP automated Form I-94 in the air and sea 
environment. The automated system allows CBPOs to create an I-94 
Arrival Record within primary and secondary inspection processing 
systems at the time of inspection with passenger manifest information, 
eliminating the need for paper forms and manual data entry. CBP has 
reported over 86,000 inspection hours avoided related to the automation 
of the I-94 in the air environment since fiscal year 2013. However, the 
current land border I-94 process, to include the I-94W, unfortunately 
remains labor-intensive for CBPOs. In order to create a more efficient 
land border process, CBP intends to enhance the existing I-94 web 
portal to include additional functionality that allows a traveler to 
submit information to CBP and pay the required fee prior to arrival at 
a port of entry. CBP intends to launch the on-line I-94 application and 
fee payment later this year, which is estimated to reduce the I-94 
process time by almost 50 percent.
    The gap in CBPAS staffing will be mitigated through the expansion 
of agriculture-related BTIs like the expansion of Enforcement Link 
Mobile Operations-Cargo (ELMO-c) initiative to outfit CBPAS with mobile 
devices. The mobile devices allows CBPASs to release more cargo in a 
shorter amount of time since they do not have to return to the office. 
Full deployment of mobile devices to all CBPASs is expected to be 
completed by the end of 2016.
    Finally, CBP is the lead organization within the Department of 
Homeland Security (DHS) responsible for developing and implementing a 
comprehensive entry/exit system. CBP, working in partnership with the 
DHS Science and Technology Directorate (S&T) Apex Air Entry/Exit Re-
engineering Program, has benefitted from S&T's deliberate process for 
analyzing and rigorously evaluating existing entry/exit processes, 
identifying opportunities for optimization, and implementing 
improvements that will maximize traveler identity assurance while 
facilitating legitimate travel and trade in the air and land 
environments. In the air environment, CBP has been testing biometric 
facial comparison technology and mobile biometric capture technology 
and working to incorporate the technology into existing operations in a 
manner that minimizes adverse impacts to international air traveler 
processing.
    In the land border environment, on the Northern Border, CBP and the 
Canada Border Services Agency have partnered to create a biographic 
entry/exit data exchange to improve each other's visibility and control 
of individuals crossing our shared land border. Both countries now 
exchange data so that information collected on an entry into one 
country is automatically recorded as an exit from another. CBP is able 
to match entry and exit land border crossings at over 98 percent, 
significantly improving the CBP's situational awareness along the 
Northern land border.\3\
---------------------------------------------------------------------------
    \3\ The current arrangement allows for the sharing of crossing data 
on all third-country nationals. However, there are plans to expand this 
partnership to also cover Canadian and U.S. citizens. Since its start 
on June 30, 2013, CBP has collected over 1 million records from 
Canada--about 10,000 to 15,000 per day.
---------------------------------------------------------------------------
    On the Southwest land border, CBP has been developing new biometric 
screening capabilities for non-U.S. citizens entering and departing the 
United States through a Southwest land border pedestrian crossing. This 
new capability will assist CBPOs to accurately identify departing 
pedestrians and record their exit to enhance situational awareness and 
support the identification of overstays. Most non-U.S. citizens will 
have their biometrics--facial and iris images--collected upon entry for 
future comparison to facial and iris images collected during departure. 
In addition to testing the matching capabilities of new biometric 
modalities, the field test will also evaluate how this biometric 
technology captures while the individual is ``on the move,'' how it 
captures from a distance, and how it operates in the challenging 
outdoor environment of the Southwest land border. CBP implemented the 
departure experiment at the Otay Mesa POE near San Diego, California, 
in February 2016.
    CBP's BTIs are an important pillar of the Resource Optimization 
Strategy and allow CBP to realign CBPO and CBPAS resources to priority 
initiatives. BTIs also reduce CBP's required inspection hours, 
resulting in a decrease of overall workload requirements and equivalent 
staffing. The fiscal year 2017 President's budget supports CBP's BTIs, 
which have saved over 600,000 inspectional hours in fiscal year 2015 
and are estimated to save over 500,000 inspectional hours through 
fiscal year 2017.
Land Border Ports of Entry Modernization
    Effective and efficient POE infrastructure is critical to CBP's 
mission to secure and facilitate lawful trade and travel. Of the 
Nation's 328 official POEs, 110 are LPOEs responsible for operating 167 
separate crossings along our borders with Mexico and Canada. Most of 
the LPOE inspection facilities were not designed to meet the post-9/11 
security and operational missions of CBP. Rather, they were built to 
support the distinct operations of legacy DHS components, such as the 
U.S. Customs Service, the Animal and Plant Health Inspection Service of 
the U.S. Department of Agriculture, and the U.S. Immigration and 
Naturalization Service.
    Today, CBP's operations entail sophisticated targeting and 
communication systems, state-of-the-art detection technology, and a 
cadre of professional law enforcement personnel to identify, screen, 
and inspect high-risk persons and cargo and maintain an efficient 
stream of cross-border travel and trade. However, the success of our 
operational strategy depends heavily on the condition and operational 
utility of the inspection facilities and the availability of CBP 
personnel.
    Several LPOEs were built more than 70 years ago and require 
renovation or replacement to meet present-day operational and security 
standards. Many constructed as recently as 15 to 20 years ago also 
require significant modernization to address growing demands for 
additional processing capacity, new security requirements and 
enforcement technologies, and the need to maximize the efficiency of 
existing personnel and resources. To construct and sustain CBP's LPOE 
inspection facilities, CBP works in close partnership with the General 
Services Administration's (GSA) Public Buildings Service, which manages 
many of the LPOE facilities.
    As the facility operator at all LPOEs, including those owned or 
leased by GSA, CBP works in close coordination with GSA to identify 
long-term future investments for funding through the GSA Federal 
Buildings Fund. Through this collaborative project team approach, both 
agencies work to ensure that the available Federal funding is directed 
to the areas of greatest need within the GSA portfolio in accordance 
with the capital investment plan.
    CBP employs a multi-step process to plan for all LPOE modernization 
investments, whether planned for a CBP-owned or a GSA facility. This 
process includes gathering data using the Strategic Resource Assessment 
(SRA) process, evaluating identified needs at each POE location, 
conducting a sensitivity analysis on the initial ranking of needs, and 
assessing project feasibility and risk. The culmination of this process 
is a final prioritization of proposed modernization projects and the 
development of a capital investment plan in coordination with GSA. This 
capital investment plan divides the project list into feasible annual 
work plans that reflect the analytical conclusions and incorporate 
project phasing and funding requirements. CBP and GSA update the 
capital investment plan annually, taking into account any changes in 
DHS's mission and strategy, changing conditions at the LPOEs, and any 
other factors discovered in the course of projects already under way.
    Infrastructure enhancements are critical to the improvement of 
trade and travel facilitation; these changes are necessary to support 
current traffic volumes and modern technology. Although stimulus 
funding appropriated under the American Recovery and Reinvestment Act 
(ARRA), Pub. L. No. 111-5, enabled CBP and GSA to fund many large-scale 
LPOE capital construction and facility improvement projects, 
significant additional investment is necessary to modernize the entire 
LPOE portfolio. Thanks to the support of Congress, CBP received 
authority to accept reimbursement for activities and donations
      partnerships with the private-sector and government entities
    While modernizing POE infrastructure and facilities, improving 
business processes, and increasing the number of CBPOs have been 
successful, the updated Workload Staffing Model results continue to 
show a need for additional capability to fully meet the standards set 
by statute, regulation, and CBP policies, assuming maintenance of 
current processes, procedures, technology, and facilities. Furthermore, 
CBP is frequently asked by our stakeholders to provide new or 
additional services and infrastructure at POEs across the country. We 
recognize the potential economic impact for new or expanded service and 
infrastructure, and we very much want to support these endeavors. 
However, due to budget restraints and limited resources, we are not 
always able to accommodate these requests.
    A key aspect of CBP's 3-pronged Resource Optimization Strategy is 
the exploration of partnering with the private sector through such 
activities as reimbursement and potential acceptance of donations. As 
part of CBP's Strategy, CBP received authority to enter into agreements 
under Section 560 of Division D of the Consolidated and Further 
Continuing Appropriations Act, 2013, Pub. L. No. 113-6 (Section 560); 
Section 559 of Division F of the Consolidated Appropriations Act, 2014, 
Pub. L. No. 113-76 (Section 559); and Section 550 of the Consolidated 
Appropriations Act of 2016, Pub. L. No. 114-53.
    Under Section 560, CBP received authority allowing the commissioner 
of CBP to enter into no more than 5 agreements, under certain 
conditions, to provide new or enhanced services on a reimbursable basis 
in any of CBP's non-foreign operational environments. CBP implemented 
this authority, entering into agreement with the participating 
locations \4\ before the late December 2013 statutory deadline. In the 
first 6 months of the program, CBP was able to provide an additional 
7,000 CBP Officer assignments and opened primary lanes and booths for 
an additional 18,000 hours at the request of our partners, increasing 
border processing throughput at U.S. air and land POEs under this 
program. In January 2014, CBP received additional authority under 
Section 559, which authorizes CBP to enter into partnerships with 
private-sector and Government entities at ports of entry to reimburse 
the costs of certain CBP services and to accept donations of real and 
personal property (including monetary donations) and non-personal 
services.
---------------------------------------------------------------------------
    \4\ The Section 560 participating partners are the Dallas/Fort 
Worth International Airport Board, the city of El Paso, Miami-Dade 
County, the city of Houston/Houston Airport System, and the South Texas 
Assets Consortium.
---------------------------------------------------------------------------
    Both provisions respond to CBP's efforts to find innovative 
approaches to meet the growing demand for new and expanded facilities 
and, in particular, the on-going modernization needs of CBP's LPOE 
portfolio.
Reimbursable Services Agreements
    Section 559(e) expands CBP's authority, under a 5-year pilot 
program, to enter into reimbursable agreements similar to the fiscal 
year 2013 ``Section 560'' authority. This new authority allows CBP to 
support requests for expanded services, including customs, agricultural 
processing, border security services, and immigration inspection-
related services at POEs; salaries for additional staff; and CBP's 
payment of overtime expenses at airports. There is no limit on the 
number of agreements CBP can enter into at CBP-serviced seaports or 
land border POEs. However, at airports, Section 550 of the Consolidated 
Appropriations Act, 2016 expanded the statutory limit to 10 agreements 
per year, which will allow CBP to increase the impact of this program 
to additional stakeholders and the traveling public. Additionally, the 
law stipulates that agreements may not unduly and permanently impact 
existing services funded by other sources.
    CBP evaluates each Reimbursable Services Agreement (RSA) proposal 
based on a single set of objective and carefully-vetted criteria to 
ensure that final recommendations will be most beneficial to CBP, to 
the requesting parties, and to the surrounding communities. The main 
factors of consideration include the impact on CBP operations; funding 
reliability; community and industry concerns; health and safety issues; 
local/regional economic benefits; and feasibility of program use.
    RSAs enable stakeholders to identify enhanced services needed to 
facilitate growing volumes of trade and travel at specific POEs, and 
enables CBP to receive reimbursement so that we can fulfill those 
requirements. The authority provides stakeholders and CBP the 
flexibility to meet situational or future demand for extended or 
enhanced services to secure and facilitate the flow of trade or travel 
at participating ports. At LPOEs this authority enables CBP to open and 
staff additional lanes or provide services for extended hours to reduce 
wait times and expedite commercial and personal traffic. At airports, 
RSAs enable CBP to staff additional booths on an overtime basis during 
peak hours. At seaports, RSAs enable CBP to provide additional 
processing of cruise passengers and commercial cargo, furthering the 
facilitation of travel and trade.
    In the first 26 months of the program, CBP has entered into 
agreements with 28 stakeholders, providing more than 145,000 additional 
processing hours at the request of our partners--accounting for the 
processing of more than 3.5 million travelers and nearly 525,000 
personal and commercial vehicles. Among the participating airports, the 
added hours and supplementary lane openings, in conjunction with other 
passenger processing initiatives, have helped decrease wait times by an 
average of almost 30 percent while traveler volume has increased about 
7 percent. The program continues to expand as new agreements are signed 
every year, as authorized by this 5-year pilot program.\5\
---------------------------------------------------------------------------
    \5\ A full list of current participants is available at http://
www.cbp.gov/border-security/ports-entry/resource-opt-strategy/public-
private-partnerships/reimbursable-services-program.
---------------------------------------------------------------------------
Donation Acceptance Authority
    Section 559(f), the Donation Acceptance Authority, authorizes CBP 
and GSA to accept donations of real or personal property (including 
monetary donations) or non-personal services from private sector or 
Government entities. Any donation accepted may be used for necessary 
activities related to the construction, alteration, operation, or 
maintenance of a new or existing POE, including but not limited to: 
Land acquisition, design, and the deployment of equipment and 
technologies. These donations are expected to reduce border wait times, 
support increased traffic flow and volume, create jobs, and address 
critical operational and regional border master plan infrastructure and 
technology priorities across the United States.
    The Donation Acceptance Authority requires that CBP and GSA 
establish and publish its procedures and criteria for evaluating 
donation proposals submitted under Section 559. CBP and GSA coordinated 
closely to satisfy this statutory requirement by jointly developing the 
Section 559 Donation Acceptance Authority Proposal Evaluation 
Procedures & Criteria Framework, which CBP published on October 1, 
2014.\6\ This document outlines the robust operational and technical 
evaluation criteria that CBP and GSA use to determine proposal 
viability. These criteria include, but are not limited to, the impact 
to CBP operations, increased trade and travel efficiency, economic and 
community benefits, financial feasibility, and real estate and 
environmental implications. This document also describes the procedures 
that CBP and GSA use to systematically plan, develop, and formally 
accept proposed donations in close coordination with its public and 
private-sector partners.
---------------------------------------------------------------------------
    \6\ http://www.cbp.gov/sites/default/files/documents/
DAA%20Proposal%20Evaluation%20- 
Procedures%20%26%20Criteria%20Framework_Public%20FINAL.pdf.
---------------------------------------------------------------------------
    Last year, CBP announced that proposals submitted by the city of 
Donna, Texas; the city of El Paso, Texas; and the city of Pharr, Texas 
had been selected for further planning and development. CBP and GSA 
have since forged strong, mutually-beneficial partnerships with each of 
the aforementioned municipalities and are actively collaborating with 
them to accomplish our shared border infrastructure and technology 
goals. This spring, CBP and GSA expect to announce the fiscal year 2016 
donation proposal selections and look forward to working with our new 
partners to plan and develop their conceptual proposals into executable 
projects.
    In sum, CBP is implementing business improvements, thoroughly and 
systematically analyzing port of entry infrastructure needs and 
exploring alternative sources of funding to bridge current and 
anticipated mission resource gaps. Both the Reimbursable Services 
Authority and the Donation Acceptance Authority enable CBP to build 
effective partnerships with stakeholders to address the port 
requirements necessary to support growing volumes of travel and trade.
                               conclusion
    Legitimate travel and trade play a critical role in the Nation's 
economic growth, and CBP recognizes its role in sustaining such growth. 
The combination of highly-trained personnel, technology, and modernized 
facilities form the essential foundation for CBP's operational 
strategy, which every POE, large or small, must be able to support. CBP 
continues to evaluate and optimize its primary hiring and business 
processes and will further develop transformation initiatives to 
accomplish our mission more effectively and efficiently.
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee, thank you for the opportunity to testify today. We are 
happy to answer any questions you may have.

    Ms. McSally. Thank you, Mr. Wagner. The Chair now 
recognizes Mr. Gelber for 5 minutes.

   STATEMENT OF MICHAEL GELBER, DEPUTY COMMISSIONER, PUBLIC 
    BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Gelber. Good morning, Chairman McSally, acting Ranking 
Member Higgins, and Members of the subcommittee. My name is 
Michael Gelber, and I am the deputy commissioner of the U.S. 
General Services Administration, Public Building service. Thank 
you for inviting me to this hearing on prioritizing and 
improving the Department of Homeland Security's Customs and 
Border Protection's facility infrastructure.
    GSA's mission is to deliver the best value in real estate 
acquisition and technology services to Government and the 
American people. As part of this mission, GSA maintains a close 
partnership with CBP to meet that agency's space needs along 
our Nation's borders. CBP is our primary partner among the 
Federal inspection agencies stationed along America's land 
borders. GSA works closely with CBP to design, construct, 
maintain, and operate land ports of entry along more than 1,900 
miles of border between the United States and Mexico, and more 
than 5,500 miles of border between the United States and 
Canada. These ports are critical to the Nation's trade and 
security.
    From 2000 to 2014, the combined value of trade between the 
United States and Canada, and the United States and Mexico via 
surface transport increased by over 80 percent, from $546 
billion in 2000 to $987 billion in 2014. Safe, secure, and 
modern land ports along our borders are critical to ensuring an 
efficient flow of commerce and people that support American 
jobs and economic growth. Over the 167 land ports of entry 
along the American border GSA manages 124, of which the 
Government owns, or partially owns 102. GSA's land ports of 
entry encompass more than 5.5 million square feet of space.
    Given the importance of these land ports of entry, GSA, in 
collaboration with CBP, prioritizes investment to modernize and 
upgrade these ports. To ensure these investments address CBP's 
highest-priority needs, GSA relies on priorities established by 
CBP.
    Over the past 16 years, GSA has invested more than $1.8 
billion from the Federal buildings fund to deliver more than 20 
new land ports of entry along our Nation's Northern and 
Southern Borders. Since 2013, GSA has requested over a billion 
in support of land port modernization, including GSA's fiscal 
year 2017 request of $248 billion to reconfigure and expand the 
land port of entry in Calexico, California, and $5.7 million 
for the design and construction of a new animal inspection 
facility in Pembina, North Dakota.
    Of these requests, Congress has provided approximately $700 
million to date. Without full funding requested in the 
President's annual budget, GSA cannot execute the land port 
upgrades that are critically needed. CBP and GSA consult with 
stakeholder agencies at the onset of project planning and 
continue this relationship throughout project development and 
execution.
    If a project involves a new border crossing and/or a 
substantial modification of an existing crossing, GSA works 
closely with the Department of State, which must determine 
whether the project is in the National interest, justifying 
issuance of a Presidential permit.
    GSA also works closely with the Department of 
Transportation's Federal Highway Administration, and the 
transportation departments from the border States when planning 
border infrastructure projects. GSA has seen significant 
interest in finding funding alternatives to direct Federal 
appropriations to support the delivery of land port projects. 
One tool for supporting Federal efforts is section 559, the 
donation acceptance program, which authorizes GSA and CBP to 
receive donations and reimbursable services for land port of 
entry projects.
    Under this program, projects are being further assessed and 
developed in the cities of Donna, El Paso, and Pharr, Texas. In 
Donna, GSA and CBP have helped the city complete concept 
development for their proposals, while the El Paso and Pharr 
port of entry modernization projects are in concept 
development.
    GSA and CBP are currently reviewing fiscal year 2016 
donation acceptance program proposals which may provide 
additional investment and infrastructure and technology at land 
ports of entry.
    Thank you for the opportunity to speak with you today about 
GSA's on-going partnership with CBP to improve the Nation's 
infrastructure along America's borders. I welcome the 
opportunity to discuss commitment to strategic investment in 
the Nation's land port of entry, and I am happy to answer any 
questions you may I have.
    [The prepared statement of Mr. Gelber follows:]
                  Prepared Statement of Michael Gelber
                             April 19, 2016
                              introduction
    Good morning Chairman McSally, Ranking Member Vela, and Members of 
the subcommittee. My name is Michael Gelber, and I am deputy 
commissioner of the U.S. General Services Administration's (GSA) Public 
Buildings Service. Thank you for inviting me to this hearing on 
prioritizing and improving the Department of Homeland Security's 
Customs and Border Protection's (CBP) facility infrastructure.
    GSA's mission is to deliver the best value in real estate, 
acquisition, and technology services to Government and the American 
people. As part of this mission, GSA maintains a close partnership with 
CBP to meet that agency's space needs along our Nation's borders. CBP 
is our primary partner among the Federal inspection agencies stationed 
along America's land borders.
    I look forward to describing how GSA partners with CBP concerning 
how the Federal Government prioritizes and executes land port projects 
to improve security, trade, and economic opportunities.
                  gsa's on-going partnership with cbp
    GSA works closely with CBP to design, construct, maintain, and 
operate land ports of entry along more than 1,900 miles of border 
between the United States and Mexico and more than 5,500 miles of 
border between the United States and Canada. These ports are critical 
to the Nation's trade and security.
    On a daily basis, approximately 380,000 people cross the U.S.-
Canada border. From 2000 to 2014, the combined value of trade between 
the United States and Canada and the United States and Mexico via 
surface transport increased by over 80 percent, from $546 billion in 
2000 to $987 billion in 2014. Safe, secure, and modern land ports along 
our borders are critical to ensuring an efficient flow of commerce and 
people that support American jobs and economic growth.
    Of the 167 land ports of entry (LPOEs) along the U.S. borders, GSA 
manages 124, of which the Government owns or partially owns 102. GSA's 
land ports of entry encompass more than 5.5 million square feet of 
space. Additionally, CBP owns and operates 40 primarily smaller 
locations, mostly in remote, rural areas. The Department of Agriculture 
owns one land port of entry, and the Department of the Interior--
National Park Service owns 2 ports.
    Given the importance of these land ports of entry, GSA, in 
collaboration with CBP, prioritizes investment to modernize and upgrade 
these ports. To ensure these investments address CBP's highest priority 
needs, GSA relies on the priorities established with CBP's in the 
planning process for portfolio upgrades. CBP employs a multi-step 
process to develop its plan. This list of priorities can include 
expansion and modernization of existing land ports along with new port 
construction.
    CBP's process includes gathering data through a Strategic Resource 
Assessment planning progress, scoring identified needs at each port, 
conducting a sensitivity analysis on the initial ranking of needs, 
assessing project feasibility and risk, and establishing an executable 
capital investment plan.
    Over the past 16 years, GSA has invested more than $1.8 billion 
from the Federal Buildings Fund to deliver more than 20 new land ports 
along our Northern and Southern Borders. Since 2013, GSA has requested 
over $1 billion in support of land port modernization, including GSA's 
fiscal year 2017 request of $248,213,000 to reconfigure and expand the 
land port of entry in Calexico, California, and $5,749,000 for design 
and construction of a new animal inspection facility for the U.S. 
Department of Agriculture Animal and Plant Health Inspection Service at 
the Pembina, North Dakota land port of entry. Of these requests, 
Congress has provided approximately $700 million.
    Without the full funding requested in the President's annual 
budget, GSA cannot execute the land port upgrades that are critically 
needed. GSA works with CBP to execute the projects that received 
enacted appropriations.
                        land port prioritization
    CBP and GSA consult with stakeholder agencies at the onset of 
project planning and continue this relationship throughout project 
development and execution. If a project involves a new border crossing 
and or a substantial modification of an existing crossing, GSA works 
closely with the Department of State, which must determine whether the 
project is in the National interest justifying issuance of a 
Presidential Permit. GSA also works closely with the Department of 
Transportation's Federal Highway Administration (FHWA) and the 
transportation departments from the 15 border States when planning 
border infrastructure projects.
    CBP and GSA are partners in the border master planning process on 
the U.S.-Mexico border. In addition to coordination with State and 
local agencies, the border master planning process also includes 
Mexican federal, state, and local government entities as well as other 
Federal agencies including State Department, DOT (FHWA, Federal Motor 
Carrier Safety Administration, etc.) and sometimes private partners as 
well (railroads, for example). The resulting Border Master Plan is a 
listing of project priorities that State and local governments rank 
regionally and provide guidance to help CBP and GSA rank projects 
Nationally.
    With respect to land ports at the Northern Border, GSA works 
closely with the Department of State to coordinate with Government 
offices at all levels in Canada.
                     improving land ports of entry
    GSA has also seen significant interest in finding funding 
alternatives to direct Federal appropriations to support the delivery 
of high-priority land port projects. One tool for supporting Federal 
efforts is the Section 559 Donation Acceptance Program (DAP), which 
authorizes GSA and CBP to receive donations and reimbursable services 
for land port of entry projects.
    Under this program, projects are being further assessed and 
developed in the cities of Donna, El Paso, and Pharr, Texas. In Donna, 
for example, GSA and CBP have helped the city complete concept 
development; while in El Paso and Pharr, port of entry modernization 
projects are in the concept development phase.
    GSA and CBP are currently in the process of reviewing DAP fiscal 
year 2016 proposals, which may provide additional investment in, and 
expedition of, infrastructure and technology improvements at ports of 
entry.
                               conclusion
    Thank you for the opportunity to speak with you today about GSA's 
on-going partnership with CBP to improve the Nation's infrastructure 
along America's borders. I welcome the opportunity to discuss GSA's 
commitment to strategic investment in the Nation's land ports of entry, 
and am happy to answer any questions you may have.

    Ms. McSally. Thank you, Mr. Gelber. The Chair now 
recognizes Mr. Reardon for 5 minutes.

 STATEMENT OF ANTHONY M. REARDON, NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Mr. Reardon. Chairwoman McSally, acting Ranking Member 
Higgins, thank you for the opportunity to testify on CBP's 
efforts to prioritize and improve staffing, to keep pace with 
the country's trade, travel, and security needs. As NTEU 
president, I have the honor of leading a union that represents 
over 25,000 CBP employees who are stationed at 328 U.S. air, 
sea, and land ports of entry and a pre-clearance operations 
overseas. There is no greater roadblock to trade and travel 
efficiency and security needs than the lack of sufficient 
staffing at ports. Studies have shown that for every 1,000 CBP 
Officers hired, 3,300 private-sector jobs are created. 
Understaffed ports lead to long delays in travel and cargo 
lanes, and create a significant hardship for employees and 
contribute to CBP's perennial low ranking in Federal employee 
surveys.
    Both involuntary overtime and involuntary work assignments 
far from home disrupt CBP Officers' family life and destroy 
morale. NTEU is most concerned that CBP continues to fall short 
in its authorized staffing levels by approximately 800 of the 
2,000 CBP Officers funded by Congress in 2014. CBP contends 
that they are unable to find eligible applicants. One factor 
may be that CBP is not utilizing available pay flexibilities, 
such as recruitment awards and special salary rates, to 
incentivize new and existing CBP Officers to seek vacant 
positions at hard-to-fill ports.
    An example of the negative impact staffing shortages have 
on CBP Officers can be found at San Ysidro, where CBP has 
instituted involuntary temporary duty assignments, or TDYs. 
While asserting that it would prefer to use volunteers and not 
involuntarily draft employees, CBP has rejected NTEU proposals 
that would incentivize employees to volunteer.
    Forced TDYs caused by on-going staffing shortages undermine 
employee morale, and undermine overall recruitment efforts, 
especially since the very best recruiters should be current CBP 
Officers. Unfortunately, many Officers would not encourage 
their family members or friends to seek employment with CBP.
    In its fiscal year 2017 budget submission, CBP offered 
several proposals to mitigate the on-going staffing shortage of 
approximately 2,100 CBP Officers. One proposal which NTEU 
strongly opposes is to backfill 50 CBP Officer attrition 
vacancies in fiscal year 2017 with 50 CBP technicians in order 
to free up CBP Officers from administrative duties. NTEU 
supports hiring additional CBP technicians to free up CBP 
Officers from administrative duties as long as CBP is not 
reducing the current on-board goal of 23,821 CBP Officers, 
since CBP technicians are not qualified as CBP Officers. Hiring 
new CBP Officers should be CBP's priority.
    A funding proposal in CBP's budget submission that NTEU 
strongly supports is for Congress to authorize a $2 increase in 
Immigration and Customs user fees to fund the hiring of the 
2,100 additional CBP Officers needed to end the current CBP 
Officers staffing shortage.
    In recent years, in order to find alternative sources of 
funding to address serious staffing shortages, CBP received 
authorization and has entered into reimbursable service 
agreements with private sector as well as State and local 
government entities. NTEU believes that the RSAs are not a 
long-term funding solution, and cannot replace the need for 
Congress to either authorize and increase in Customs and 
Immigration user fees, or provide increased appropriations to 
hire additional CBP Officers without undermining CBP's mission 
and independence by transforming it into a pay-to-play agency.
    The CBP employees I represent are frustrated, and their 
morale is indeed low. They work hard and care deeply about 
their jobs and their country. They understand that budgets are 
tight and remain dedicated to performing difficult jobs every 
day, despite the impact of on-going staffing crisis. Both CBP 
and Congress should address these important staffing issues. 
CBP needs to improve its hiring process that has delayed the 
hiring of the 2,000 Officers funded in 2014, and if Congress is 
serious about job creation and border security, it needs to 
fund the hiring of the remaining 2,107 CBP Officers, and the 
631 Agriculture Specialists identified in CBP's 2016 workload 
staffing model.
    Thank you, and I am happy to answer questions.
    [The prepared statement of Mr. Reardon follows:]
                Prepared Statement of Anthony M. Reardon
                             April 19, 2016
    Chairman McSally, Ranking Member Vela, distinguished Members of the 
subcommittee; thank you for the opportunity to provide this testimony. 
As president of the National Treasury Employees Union (NTEU), I have 
the honor of leading a union that represents over 25,000 Customs and 
Border Protection (CBP) Officers and trade enforcement specialists 
stationed at 328 land, sea, and air ports of entry across the United 
States and 16 pre-clearance stations currently at Ireland, the 
Caribbean, Canada, and United Arab Emirates airports.
    NTEU supports the administration's fiscal year 2017 budget that 
provides $12.9 billion for Customs and Border Protection (CBP), an 
increase of 5.2% over fiscal year 2016. In fiscal year 2017, CBP plans 
to have on board 23,861 CBP Officers at the ports of entry--which 
achieves the hiring goal of 2,000 additional CBP Officers initially 
funded in fiscal year 2014.
    The most recent results of CBP's Workload Staff Model (WSM)--
factoring in the additional 2,000 CBP Officers from the fiscal year 
2014 appropriations--shows a need for an additional 2,107 CBP Officers 
through fiscal year 2017. The Agriculture Resource Allocation Model 
(AgRAM) calculates a need for an additional 631 CBP Agriculture 
Specialists for a total of 3,045. CBP's fiscal year 2017 budget 
submission seeks Congressional approval to fund these 2,107 new CBP 
Officers through an increase in user fees, but includes no additional 
funding to address the current 631 Agriculture Specialist staffing 
shortage.
    There is no greater roadblock to legitimate trade and travel 
efficiency than the lack of sufficient staff at the ports. Understaffed 
ports lead to long delays in commercial lanes as cargo waits to enter 
U.S. commerce and also creates a significant hardship for CBP 
employees.
    An example of the negative impact staffing shortages have on CBP 
Officers can be found at the San Ysidro port of entry where CBP has 
instituted involuntary temporary duty assignments (TDYs) to address a 
staffing crisis there. At John F. Kennedy (JFK) Airport, CBP has 
granted overtime exemptions to over one-half of the workforce to allow 
managers to assign overtime to Officers that have reached the statutory 
overtime cap. Both involuntary overtime--resulting in 12- to 15-hour 
shifts, day after day, for months on end--and involuntary work 
assignments far from home disrupt CBP Officers' family life and destroy 
morale. On-going staff shortages directly contribute to CBP's perennial 
ranking at the very bottom of the Partnership for Public Service's 
``Best Places to Work'' Survey--314 out of 320 agency subcomponents on 
the latest survey.
    For years, NTEU has maintained that delays at the ports result in 
real losses to the U.S. economy. According to the U.S. Department of 
the Treasury, more than 50 million Americans work for companies that 
engage in international trade and, according to a University of 
Southern California (USC) study, ``The Impact on the Economy of Changes 
in Wait Times at the Ports of Entry'', dated April 4, 2013, for every 
1,000 CBP Officers added, the United States can increase its gross 
domestic product (GDP) by $2 billion, which equates to 33 new private-
sector jobs per CBP Officer added. This analysis was supplemented by 
USC in its update entitled ``Analysis of Primary Inspection Wait Times 
at U.S. Ports of Entry'' published on March 9, 2014. This study found 
that by adding 14 CBP Officers at 14 inspection sites in 4 
international airports, the potential total net impact would be to 
increase annual GDP by as much as $11.8 million.
                     cbp officer hiring challenges
    Of major concern to NTEU is that CBP continues to fall short in its 
authorized hiring efforts by approximately 800 of the 2,000 officers 
that were funded by Congress in 2014. According to CBP, they hope to 
have hired the 2,000 authorized by the second quarter of 2017. CBP 
contends that they are unable to find eligible applicants to fill the 
vacant positions.
    One factor that may be hindering hiring is that CBP is not 
utilizing available pay flexibilities, such as recruitment awards and 
special salary rates, to incentivize new and existing CBP Officers to 
seek vacant positions at these hard-to-fill ports, such as San Ysidro.
    NTEU and CBP are currently negotiating over the agency's proposal 
to draft CBP Officers to work involuntary TDYs at San Ysidro for longer 
than 90 days. CBP has made this proposal because its solicitation for 
volunteers to staff this TDY is no longer keeping up with what CBP 
believes to be its staffing requirements. Yet, while asserting that it 
would prefer to use volunteers and not involuntarily draft employees, 
CBP has rejected NTEU proposals that would incentivize employees to 
volunteer. For example, CBP has balked at offering any monetary 
incentives or seeking legislative changes to allow special hiring 
incentives such as student loan repayments to entice more individuals 
to apply to work in San Ysidro.
    To help address staffing shortages, NTEU is also exploring whether 
our members would be interested in CBP offering an entry-level age 
waiver of 40 years and a mandatory retirement age waiver of 60 years as 
a means to attract a larger pool of potential applicants and to reduce 
attrition rates due to the statutory mandatory retirement at age 57 
years.
    Finally, the best recruiters are likely current CBP Officers. Let 
me rephrase that and say that current CBP Officers could be the best 
recruiters. Unfortunately, based on their experiences with the agency, 
many officers would never encourage their family members or friends to 
seek employment with CBP. That ought to be telling them something 
pretty important too. I have suggested to CBP leadership that they look 
at why this is the case.
    In its fiscal year 2017 budget submission, CBP offered several 
proposals to mitigate the on-going staffing shortage of 2,107 CBP 
Officers that will continue into fiscal year 2017 and beyond. One of 
these proposals is to backfill 50 CBP Officer attrition vacancies in 
fiscal year 2017 with CBP Technicians in order to free up CBP Officers 
from administrative duties. NTEU supports the hiring of additional CBP 
Technicians to free up CBP Officers from administrative duties as long 
as CBP is not reducing the current on-board goal of 23,821 CBP 
Officers. However, CBP's proposal, as outlined in its fiscal year 2017 
budget submission, proposes a 1-for-1 replacement of 50 CBP Officer 
positions with 50 CBP Technicians. NTEU strongly opposes this proposal.
    CBP Technicians cannot ``backfill'' CBP Officer positions, because 
they are not qualified as CBP Officers. With an on-going shortage of 
2,107 CBP Officers, hiring new CBP Officers should be CBP's priority. 
NTEU supports hiring additional CBP Technicians to give administrative 
support to CBP Officers, but strongly objects to CBP replacing CBP 
Officer positions made vacant through attrition with CBP Technicians.
    A funding proposal in the fiscal year 2017 CBP budget submission 
that NTEU strongly supports is for Congress to authorize a $2.00 
increase in immigration and customs user fees to fund the hiring of the 
2,107 additional CBP Officers needed to end the current CBP Officer 
staffing shortage.
    NTEU was disappointed that Congress, in last year's highway bill, 
indexed Customs user fees to inflation, but diverted this fee increase 
to serve as an offset for highway and infrastructure funding, rather 
than to hire additional CBP Officers.
    By diverting the difference in the amount of Customs user fees 
collected currently and the additional amount indexed to inflation to 
non-CBP related projects both increases the cost to the private sector 
by escalating the current level of customs user fees paid over the next 
10 years, and compels the private sector to separately fund--through 
Reimbursable Service Agreements (RSA)--CBP inspectional staffing and 
overtime. NTEU will work to redirect this $400 million a year funding 
stream back to CBP for its intended use--to pay for CBP inspection 
services provided to the user.
                 reimbursable service agreements (rsa)
    In recent years, in order to find alternative sources of funding to 
address serious CBP Officers and Agriculture Specialist staffing 
shortages, CBP received authorization and has entered into RSAs with 
the private sector as well as with State and local government entities. 
These organizations reimburse CBP for additional inspection services 
including overtime pay and the hiring of new personnel that in the past 
has been paid for entirely by user fees or appropriated funding. 
According to CBP, since the program began in 2013, CBP has entered into 
agreements with 21 stakeholders, providing more than 112,000 additional 
processing hours for incoming commercial and cargo traffic at a cost of 
nearly $13 million to these public and private-sector partners.
    Section 560 of the fiscal year 2013 DHS appropriations bill 
authorized CBP to enter into 5 reimbursable fee agreements for a 5-year 
term with the city of El Paso land port of entry; the city of Houston 
Airport System; Dallas/Fort Worth International Airport; Miami-Dade 
County; and the South Texas Assets Consortium (STAC.) It should be 
noted that agricultural inspectional services are not eligible for 
reimbursement under the Section 560 program, as it is limited to 
``customs and immigration'' inspectional services such as salaries, 
benefits, relocation expenses, travel costs, and overtime as necessary 
at the city of El Paso land ports and solely to overtime at the 3 air 
ports of entry.
    An expansion of the Section 560 RSA CBP pilot program was 
authorized by Section 559 of the Consolidated Appropriations Act of 
2014 (Pub. L. 113-76). Section 559 expanded on the Section 560 RSAs by 
allowing for increased services at newly-selected ports, to include 
customs, immigration, agricultural processing, and border security 
services. Because of the need for CBP Agriculture Specialists to 
process incoming produce, STAC quit the 560 program and applied for the 
559 program. Under Section 560, RSAs were limited to CBP Officer 
overtime and staffing, except in the air environment where only CBP 
Officer overtime reimbursement is allowed. Under both Section 560 and 
559, reimbursement for the hiring of additional CBP Officer and CBP 
Agriculture Specialist positions is allowed at sea and land ports, but 
only overtime reimbursement is allowed at airports.
    The new Section 559 has no restriction on the number of RSAs for 
sea and land ports and no limits on the terms of agreement for customs, 
agricultural processing, border security services, and immigrations 
inspection-related services. These costs may include salaries, 
benefits, administration, transportation, relocation expenses, and 
overtime expenses incurred as a result of the services requested.
                          nteu's rsa concerns
    NTEU believes that the RSA program would be entirely unnecessary if 
Congress authorized user fees collected to be indexed to inflation, 
with the additional funding provided by indexing being used as set 
forth in existing statute. NTEU also believes that the RSA program is a 
Band-Aid approach and cannot replace the need for Congress to either 
authorize an increase in customs and immigration user fees indexed to 
inflation or to authorize increased appropriations to hire additional 
new CBP Officers to adequately address CBP staffing needs.
    Further, NTEU strongly believes that CBP should not enter into a 
RSA if it would negatively impact or alter services funded under any 
Appropriations Acts, or services provided from any Treasury account 
derived by the collection of fees. RSAs simply cannot replace CBP 
appropriated or user fee funding--making CBP a ``pay-to-play'' agency. 
NTEU remains concerned with CBP's new pre-clearance expansion program 
that also relies heavily on ``pay-to-play''.
    NTEU also believes that the use of RSAs to fund CBP staffing 
shortages raises significant equity and other issues, which calls for 
an engaged Congress conducting active oversight.
    For example:
  <bullet> How does CBP ensure that RSAs are not only available to 
        ports of entry with wealthy private-sector partners? (When RSAs 
        were first considered, there was a proposal to require 30% of 
        the total RSA funds collected be reserved for ports with 
        greatest need, not just those that have partners with the 
        greatest ability to pay.)
  <bullet> How does CBP ensure that RSA funds pay for the hiring of new 
        CBP Officer and Agriculture Specialist personnel and are not 
        simply used to pay for relocating existing CBP personnel from 
        other ports (robbing from Port A to staff Port B without hiring 
        additional staff)?
  <bullet> How does CBP ensure a long-term public-private funding 
        stream? (When RSAs were first considered, there was a proposal 
        to have RSA pay up-front for 10 years over 3 installments.)
    There are also some port locations where staffing shortages are so 
severe currently, that even entering into a RSA program may be 
problematic. In 2009, there were approximately 10.7 million 
international travelers processed at New York's JFK. By the end of 
2015, it is estimated that JFK will process 14.5 million passengers, a 
30% increase in mission-critical work over a 6-year period. Over this 
same period, NTEU estimates that there has been a net gain of 
approximately 100 officers to process over 3.5 million additional 
travelers.
    For the last 2 years JFK management has received overtime cap 
waivers for CBP Officers compelling these officers to work 12-, 13-, or 
15-hour shifts day after day for months on end. Officers were required 
to come in additional hours before their standard shifts, to stay an 
indeterminate number of hours after their shifts (in the same day) and 
compelled to come in for more overtime hours on their regular days off 
as well.
    The majority of CBP Officers are already working all allowable 
overtime, much of which is involuntary. I want to be clear that all CBP 
Officers are aware that overtime assignments are an aspect of their 
jobs. However, long, extensive periods of overtime hours can severely 
disrupt an officer's family life, morale, and ultimately his or her job 
performance protecting our Nation.
    CBP is currently negotiating separate RSAs with British Airways and 
American Airways at JFK. In this situation where existing Officers' 
overtime at JFK is already stretched beyond their limits, the RSA 
should be restricted to hiring new CBP Officers, and not to simply 
expanding overtime hours.
    Another concern is that CBP continues to be a top-heavy management 
organization. In terms of real numbers, since its creation, the number 
of new managers has increased at a much higher rate than the number of 
new front-line CBP hires. CBP's own fiscal year 2015 end-of-year 
workforce profile (dated 10/3/15), shows that the supervisor to front-
line employee ratio was 1 to 5.6 for the total CBP workforce, 1 to 5.7 
for CBP Officers and 1 to 6.6 for CBP Agriculture Specialists.
    The tremendous increase in CBP managers and supervisors has come at 
the expense of National security preparedness and front-line positions. 
Also, these highly-paid management positions are straining the CBP 
budget. With the increased use of RSAs to fund additional CBP Officer 
new hires, NTEU urges that CBP return to a more balanced supervisor-to-
front-line employee ratio.
                    agriculture specialist staffing
    CBP employees also perform critically-important agriculture 
inspections to prevent the entry of animal and plant pests or diseases 
at ports of entry. For years, NTEU has championed the CBP Agriculture 
Specialists' Agriculture Quality Inspection (AQI) mission within the 
agency and has fought for increased staffing to fulfill that mission. 
The U.S. agriculture sector is a crucial component of the American 
economy generating over $1 trillion in annual economic activity. 
According to the U.S. Department of Agriculture, foreign pests and 
diseases cost the American economy tens of billions of dollars 
annually. NTEU believes that staffing shortages and lack of mission 
priority for the critical work performed by CBP Agriculture Specialists 
and CBP Technicians assigned to the ports is a continuing threat to the 
U.S. economy.
    NTEU worked with Congress to include in the recent CBP Trade 
Facilitation and Enforcement Act (Pub. L. 114-125) a provision that 
requires CBP to submit, by the end of February 2017, a plan to create 
an agricultural specialist career track that includes a ``description 
of education, training, experience, and assignments necessary for 
career progression as an agricultural specialist; recruitment and 
retention goals for agricultural specialists, including a time line for 
fulfilling staffing deficits identified in agricultural resource 
allocation models; and, an assessment of equipment and other resources 
needed to support agricultural specialists.''
    CBP's fiscal year 2016 AgRAM, shows a need for an additional 631 
front-line CBP Agriculture Specialists and supervisors to address 
current workloads through fiscal year 2017, however, even with the 2016 
increase in AQI user fees, CBP will fund a total of 2,414 CBP 
Agriculture Specialist positions in fiscal year 2017, not the 3,045 
called for by the AgRAM.
    NTEU urges the committee to authorize the hiring of these 631 CBP 
Agriculture Specialists to address this critical staffing shortage that 
threatens the U.S. agriculture sector.
                     cbp trade operations staffing
    CBP has a dual mission of safeguarding our Nation's borders and 
ports as well as regulating and facilitating international trade. In 
fiscal year 2015, CBP processed more than $2.4 trillion worth of trade 
goods and collected $46 billion in revenue. Since CBP was established 
in March 2003, however, there has been no increase in CBP trade 
enforcement and compliance personnel even though in-bound trade volume 
grew by more than 24 percent between fiscal year 2010 and fiscal year 
2014.
    In 2011, CBP established the Centers of Excellence and Expertise 
(CEEs)--10 industry-specific Centers--requiring significant changes in 
CBP trade operations, employees' workload, and work practices.
    In 2014, 4 of the CEEs began operating at an accelerated level of 
processing and became fully operational. On March 24, 2016, the 
remaining 6 CEEs came on board. Critical for supporting the CEE's 
virtually-managed and geographically-dispersed workforce is the 
completion of the Automated Commercial Environment (ACE). Now 3 years 
behind schedule and more than $1 billion over budget, CBP began rollout 
of the ACE ``single window'' for industry filing electronic trade 
entries on March 30, 2016. According to industry users, the ACE rollout 
has been challenging. Users have experienced network error and system-
wide crashes.
    The rollout of CEEs has raised many issues affecting trade 
operations staff at the ports including insufficient front-line 
staffing and insufficient training for both front-line employees and 
supervisors. NTEU urges Congress to authorize the hiring of additional 
trade enforcement and compliance personnel, including Import 
Specialists, to enhance trade revenue collection.
                additional cbp personnel funding issues
    NTEU commends the Department for increasing the journeyman pay for 
CBP Officers and Agriculture Specialists. Many deserving CBP trade and 
security positions, however, were left out of this pay increase, which 
has significantly damaged morale. NTEU strongly supports extending this 
same career ladder increase to additional CBP positions, including CBP 
Trade Operations Specialists and CBP Seized Property Specialists. The 
journeyman pay level for the CBP Technicians who perform important 
commercial trade and administration duties should also be increased 
from GS-7 to GS-9.
    NTEU also supports extending enhanced retirement that was granted 
to CBP Officers in 2008 to the approximately 120 CBP Seized Property 
Specialists, the only armed, uniformed officers at CBP that do not 
receive Law Enforcement Officer retirement.
                            recommendations
    Funding for additional CBP staff must be increased to ensure 
security and mitigate prolonged wait times for both trade and travel at 
our Nation's ports of entry. The use of RSAs as an alternate source of 
funding is merely a Band-Aid approach and cannot replace the need for 
Congress to authorize an increase in customs and immigration user fees 
or to provide sufficient appropriations to hire 2,107 new CBP Officers 
to adequately address CBP staffing needs.
    Therefore, NTEU urges the committee to:
  <bullet> authorize increases in trade, travel, and agriculture 
        inspection and enforcement staffing to the level called for in 
        CBP's most recent WSM that shows a need for 2,107 additional 
        CBP Officers and an additional 631 CBP Agriculture Specialists 
        through fiscal year 2017;
  <bullet> authorize an increase in journeyman pay to additional CBP 
        personnel, including CBP Technicians, Import and other 
        Commercial Operations Specialists, and enhanced retirement to 
        armed, uniformed CBP Seized Property Specialists; and
  <bullet> engage in robust oversight of RSAs to ensure that this 
        program does not replace primary funding sources or result in 
        inequitable distribution of CBP Officer resources.
    Lastly, NTEU asks Congress to support legislation to allow CBP to 
increase user fees to help recover costs associated with fee services 
and provide funding to hire additional CBP Officers. If Congress is 
serious about job creation, then Congress should either authorize 
funding or raise immigration and custom user fees to hire the 
additional 2,107 CBP Officers as identified by CBP's own Workload 
Staffing Model.
    The more than 25,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy, safe from illegal 
trade, while ensuring that legal trade and travelers move expeditiously 
through our air, sea, and land ports. These men and women are deserving 
of more resources to perform their jobs better and more efficiently.
    Thank you for the opportunity to testify before the committee on 
their behalf.

    Ms. McSally. Thank you, Mr. Reardon. I now recognize myself 
for 5 minutes for questions. I am going to do a couple of 
rounds. So this round is going to be focused on the staffing, 
and then I will come back and talk about infrastructure in the 
second round.
    Ms. Jacksta, I want to start with you. As the author of the 
Border Jobs for Veterans Act, I believe we had an update due to 
us on April 15 with how that is going, which is now overdue. So 
can you give me an implementation update, how many veterans 
have been hired since that went into law? When are we going to 
get the report from you?
    I have a number of other questions related to some of the 
things you mentioned in your testimony. But if a veteran has 
got a TS/SCI clearance, has been through an SSBI, is given all 
those clearances, are you still starting from scratch with a 
veteran going through your 11-step process, or are you 
accepting what they have already gone through to get the 
clearances that they have? Are you looking for waiver 
authorities, for polygraphs, for those that already have 
clearances, accepting their medical, their physical fitness, 
all the things that would fast-track our veterans that we 
intended you to be doing by this law?
    Ms. Jacksta. Thank you, Chairwoman McSally. I want to thank 
you for sponsoring that legislation. As I said in my opening 
statement, I believe that this has the potential to be a true 
game-changer for CBP. With respect to the report that you 
mentioned, it is my understanding that it is going through 
internal vetting, it has left the agency, and, hopefully, it 
will be en route to you shortly.
    Ms. McSally. It is in the black hole between the agency and 
Congress, got it.
    Ms. Jacksta. In terms of implementation plan, and the 7 
goals and objectives that you outlined in the Act, I have very, 
very good news in terms of the level of collaboration that we 
have had with our partners at the Department of Defense. We 
have reached some significant agreements on levels of 
reciprocity that we would like to offer for a couple of key 
areas in the hiring process. One would be the medical.
    So when a separating servicemember is separating from the 
military, they have an exit medical. We would like to use that 
as our entrance medical. Another example is physical fitness. 
We recognize that servicemembers in the different branches of 
military have regular fitness assessments. We would like to 
offer reciprocity for our physical fitness. We have two of 
those in our hiring process.
    In addition, the e-QIP process and the background 
investigation process, to the extent that we can leverage an 
already existing background investigation, we will. So I think 
those are groundbreaking approaches that we are trying to 
implement. The goal right now is to start that reciprocity 
arrangement with DOD in the month of May.
    Our overarching goal for the time to hire to on-board 
through this facilitative process, service members and veterans 
into front-line occupations is within a 90-day window, that is 
our goal. It will probably take us a little time to walk 
through that as we implement a new process, but the goal is to 
get to a 90-day time period.
    Ms. McSally. Go ahead.
    Ms. Jacksta. With respect to the polygraph requirements and 
the TS/SCI, we do offer reciprocity for some types of 
polygraphs, so that a policy that we put in place, and it has 
been in place for some time. So if we have a transitioning 
service member with a polygraph within the last 3 years, we 
will look to offer reciprocity. Above and beyond that, we are 
exploring some concepts, again, pre-decisional does not 
necessarily represent an agency position, but we are looking at 
does it make sense to maybe have a risk management framework in 
place to assess levels of suitability depending upon your 
background, experience, you know, different levels of clearance 
that you held in former positions, maybe some different types 
of exceptions in that regard? That is something we are 
exploring now as an agency. We have not really put pen to 
paper, that is pre-decisional. But I want to leave you with the 
thought that we are leaving no stone unturned and we are 
exploring all options.
    Ms. McSally. All right. Thank you. Just to clarify, though, 
when it comes to someone who has been through, like, an SSBI, 
are you accepting that background investigation, or are you 
doing an entirely separate background investigation? Are those 
some of the things you are going to consider to accept as well?
    Ms. Jacksta. Yes, Chairwoman. That is what we are 
considering.
    Ms. McSally. Okay. Great. Thank you. Also I would encourage 
you, it sounds like the hiring hubs are helping the streamline, 
but if you were to have those hiring hubs located in places 
that have military facilities, you could speed up everything 
even tighter.
    So, I do know we are having a jobs fair in southern Arizona 
that I am hosting. I would love to coordinate with you to 
possibly have a hiring hub be a part of that. We have got 2 
large military installations there and a lot of veterans, just 
so--and I have heard from other Members, too, that have large 
military presence in their communities to help sort of 
streamline that to put those two together.
    Ms. Jacksta. Thank you, Chairwoman. We welcome the 
opportunity to collaborate on the recruiting site. For your 
awareness, we will have a hiring hub in Tucson in April, and if 
you agree to it, we can collaborate on recruiting. That would 
be wonderful. We have also had hiring hubs at Fort Bliss, 
Bragg, Campbell, Fort Hood, Camp Lejeune, and Joint Base Lewis-
McChord.
    Ms. McSally. Great. Thank you. Next I want to talk about 
the polygraph itself. We have heard several anecdotal horror 
stories of decorated combat veterans who, for some reason, were 
unable to pass this polygraph, coupled with some bizarre-
sounding behavior on behalf of the polygraph examiners. Can you 
outline how closely CBP is monitoring the polygraph exam and 
the individuals who administer the test?
    Ms. Jacksta. Absolutely. As you know, Chairwoman, CBP is 
required to conduct a polygraph per the Anti-Border Corruption 
Act of 2010. I guess the parting thought that I want to share 
with you is that our program follows the same standards as any 
other law enforcement polygraph program. We are certified by 
the National Center for Credibility Assessment, we undergo that 
certification every other year; our last assessment was done 
last January. So I share that with you because the training and 
the program get certified on a regular basis.
    With respect to how we monitor the activity, we have a 
quality assurance program within CBP that actively monitors, on 
a daily basis, the activity of the individual polygraph 
examiners, and they will intervene if they believe that an 
examiner is trending in an area that is beyond established 
thresholds. In addition to that, they take a look at audios. 
Every polygraph exam has an audio recording, so we look at the 
audio tapes. Sometimes we will pull that polygraph examiner off 
the line if we feel that more remediation, or maybe training is 
needed, particularly when we are on-boarding new polygraph 
examiners, there is that mentoring component that we have.
    In terms of our degree of rigor, I would say that it is 
fairly sound. I would also say that we take very seriously any 
complaints that we have with respect to the administration of 
that exam or any constituent concerns that maybe some of your 
constituents might have.
    There is a method called the Privacy Act waiver that 
constituents can complete, and we would be happy to share the 
findings of a polygraph exam, the nature of any admissions that 
are uncovered in that exam, if someone elects to complete a 
poly--a Privacy Act waiver.
    Ms. McSally. Thanks. Mr. Reardon, I know you represent 
those that have made it through the process, but are probably, 
then, going through periodic screening while they are in 
service. Have you heard any concerns related to the polygraph 
from your members?
    Mr. Reardon. Thank you, Chairwoman. More of what I have 
heard is really related to family members and friends of our 
members who have, in some recent times, gone through the 
polygraph process. I have heard some of the same kinds of 
horror stories that I suspect you are probably referring to. 
The kinds of questions that are asked go beyond, really, at 
least from what I have heard--clearly, I wasn't there--but the 
stories I have heard clearly go beyond what I think is probably 
acceptable to be asking someone.
    So I have raised this actually in the past with CBP, 
because I think something--this really should be looked at very 
carefully to find out where the problem is. I mean, where we 
have it taking I think the numbers that you provided early on 
were 100 to 150 applicants in order to get one CBP Officer on 
board, I think there is something wrong in the process. I 
suspect that at least some of that is related to polygraphs, 
and I think that should be looked at very carefully.
    Ms. McSally. Thank you. Just to reiterate from my opening 
statement, we all agree we have to make sure we vet 
individuals, we have got to make sure that we have got 
accountability, and those that are serving in these important 
positions are above-board. We have just got to make sure that 
we are not wrongfully filtering out, especially our combat 
veterans in the process, through false positives, or however 
you want to categorize that.
    The Chairman will now recognize other Members of 
subcommittee for questions they may wish to ask the witnesses. 
In accordance with our committee rules of practice, I recognize 
Members who were present at the start of the hearing by 
seniority in the subcommittee, those coming in later will be 
recognized in order.
    The Chair now recognizes Mr. Higgins, the acting Ranking 
Member.
    Mr. Higgins. Thank you very much. Congress has 2 
responsibilities here: One is budgetary and the other is 
oversight. So in the omnibus bill of 2014, based on concerns 
that were brought to Congress, Congress responded by providing 
funding for 2,000 additional agents to try to address the 
problems, the staffing shortages at the ports of entry.
    Also in that legislation was a mandate that Customs and 
Border Protection provide a staffing model to show how that 
personnel was going to be distributed along both the Southern 
and Northern Border. That has not been available yet, so it is 
very hard for Congress to do, to exercise, to fulfill its 
oversight responsibility. So the only thing that we really have 
to go on is anecdotal evidence that the staffing shortages 
still exist along both borders resulting in inefficiencies and 
employees who are dissatisfied.
    I was reading in Mr. Reardon's testimony that on-going 
staff shortages directly contribute to CBP's perennial ranking 
at the very bottom of the Partnership for Public Services' Best 
Places to Work surveys, 314 out of 320 agency subcomponents on 
the latest survey. That is a problem. That is a problem in 
terms of morale--morale and just the importance of that 
relative to recruitment of Officers.
    Second, there is an avoidance factor, particularly on the 
Northern Border. My experience with the Peace Bridge in Buffalo 
is the busiest Northern Border crossing for passenger vehicles. 
If there is a sense that there are delays there because of lack 
of infrastructure, because of poor staffing strategies, people 
adjust their economic behavior to avoid the cross-border 
movement; it hurts economies in Buffalo and western New York 
who rely on an efficient, reliable predictable movement into 
and out of southern Ontario, which has a population center of 
12 million people. Very, very important to the life quality and 
economic viability of places from, like, western New York.
    So I guess for everybody on the panel, we just need to do a 
much better job here, because security is obviously a primary 
issue. But that important balance of economic activity and 
promoting it as efficiently as possible is important too. So 
when Congress takes an action 2 years ago to address the needs, 
the personnel needs of both Southern and Northern Borders, and 
yet, we have not fulfilled that obligation, and we have no 
information from Customs and Border Protection about the 
staffing model, what are we to go on, other than the anecdotal 
evidence? Poor morale, borders that just continue to be 
congested? We are not fulfilling our responsibilities, so I 
throw that to the panel generally. Mr. Reardon, do you want to 
take that?
    Mr. Reardon. Thank you, Congressman. You know, I think that 
you are absolutely right. I mean the poor--from my perspective, 
the staffing shortage is certainly a large part of the problem 
when you start looking at the morale. We have got--and, in 
fact, last week I was with more than 350 of our leaders from 
around the country, CBP leaders from around the country. You 
know, I had the opportunity then, and certainly at other times 
to speak with them about the morale at CBP. You know, where you 
have individuals, for example, if we take San Ysidro, the San 
Ysidro crossing, you have people who are working 12- to 15-hour 
days, you know, day after day, week after week after week. 
After a while, it begins to wear on people, people are beaten 
up, they are tired. You know, we were noticed by CBP a while 
back that they were going to not only have TDYs up to 90 days, 
but they were--they noticed us that they could go up to 180 
days.
    Well, even when you look at taking someone from their 
family from far away and moving them for 90 days where they 
potentially have small children, they have certainly got lives 
where they are, that kind-of thing begins to really wear on a 
human being. You know, I guess I would also add kind-of to the 
small list I am giving you, the fact that when you talk to CBP 
employees, I think, probably at the core for them, is that they 
don't feel valued.
    So, I believe that, you know, there needs to be some 
serious work. You know, we have already talked about the FEV 
scores, the Federal Employee Viewpoint scores; they are 
routinely, year after year, very low. At some point, something 
has to be done to actually address those issues. Certainly, I 
think, staffing is a large component of that.
    Mr. Higgins. Anybody else?
    Ms. McSally. Thank you, Mr. Higgins. The Chair now 
recognizes Mr. Hurd from Texas.
    Mr. Hurd. Thank you, Madam Chairwoman, for holding this 
hearing and all that you have done to make sure that we are 
focused on the border. I would like to start off, like, with 
most of my colleagues, with condolences for the family of Jose 
Barraza. I know it is hard to lose a colleague, and I can only 
imagine what his wife and 2 sons are going through. So please 
pass our condolences along.
    I want to thank Mr. Schied and Mr. Gelber for your work on 
helping us with trying to extend the 559 program. Hopefully, we 
will see that over the finish line soon, and Commissioner 
Wagner, it is always a pleasure to see you.
    My first question is actually is to Ms. Jacksta. We talked 
about the polygraph a little bit. There are a number--the 
number of folks that are not making it through that process 
seem incredibly high. My question is: The number of folks that 
fail the poly during the interview process, is it comparable to 
other agencies that do polygraph for hiring?
    Ms. Jacksta. Thank you, Congressman, for that question. We 
are in the process now of conducting a benchmarking study. We 
have reached out to the National Center for Credibility 
Assessment to try to ascertain where we stand vis-a-vis other 
organizations that are conducting the same polygraph. The one 
word of caution that I would mention is that our applicant pool 
is vastly different than many other applicant pools from other 
Federal law enforcement organizations. So, we are trying to be 
careful in making sure we are measuring apples to apples.
    Mr. Hurd. I completely understand that. Being someone who 
has gone through multiple polygraphs. I appreciate this issue. 
How long is that going to take?
    Ms. Jacksta. I would be happy to take that back for the 
record.
    Mr. Hurd. I copy you.
    The next question, and maybe stay with you, ma'am, hardship 
pay, that was something that was--listen, being on the board 
multiple times a month, I recognize the hardships on the 
difficulties that the men and women within all of DHS have to 
go through. Hardship pay has changed over the years. You know, 
it is something where--because there are some places that are 
harder than others, let's be honest about that. The difficulty 
sometimes in finding folks to go to those really hard places, 
remote--trying to encourage them to do this, what is on the 
horizon when it comes to hardship pay and using that as a way 
to help retain or reduce attrition?
    Ms. Jacksta. Certainly. I recognize that this is a 
conversation that is ensuing with a number of different folks 
on the Hill. What I would share with you is that we already 
employ a couple of different elements as a way to augment the 
basic rate of pay. One is the use of special salary rates, and 
we use special salary rates right now on the border of North 
Dakota for the ag specialists. We are looking at pursuing 
something for CBP Officers and Border Patrol Agents as well. 
But that, again, is something that we are working with the 
operational offices on; and also, special salary rates for our 
Air Interdiction Agents at select locations across the country. 
We are also using incentives.
    Mr. Hurd. When do we think those studies will be completed, 
or when there will be a plan?
    Ms. Jacksta. It is my understanding that, for example, the 
CBP Air Interdiction Agent special salary rate is in existence 
today. The use of recruitment incentives is also in existence 
today. That is to help us specifically fill positions in hard 
or remote locations. We use data, attrition data and applicant 
data, to help us guide where we want to offer those incentives. 
In fact, year to date in fiscal year 2016, we have offered 75 
different incentives. In the State of Arizona alone, there are 
340 folks pending incentives. So with respect to the hardship 
pay, I would say that we are looking at a broader strategy of 
special salary rates across the board.
    Mr. Hurd. Again, when do we think that review will be--and 
I have 30 seconds, so I want to ask 2 more questions so----
    Ms. Jacksta. That review is under way. So I will get that 
for the record.
    Mr. Hurd. Yeah. I would like to know what time--when this 
could be completed.
    Who is engaged in conversations with local merchants, 
businesses? When, you know, we can protect our border and 
facilitate the movement of goods and services at the same time. 
There is groups like the Border Trade Alliance that are looking 
at understanding what the volume is going to be in the future 
in order to ensure the staffing levels are there at the ports 
of entry. Who is responsible for that engagement within your 
organization?
    Ms. Jacksta. I will defer that question to my colleague, 
Mr. Wagner.
    Mr. Hurd. Mr. Wagner.
    Mr. Wagner. Good morning. So, I mean, that is a 
conversation we have at the local level with our local managers 
and at the National level with us. You know, we work closely 
with all the, you know, alliances and representative groups. In 
our workload staffing model, we factor in about a 3 percent 
workload increase across the board. A conservative figure, but 
it does account for across-the-board growth. If there is new 
and special things, new facilities, new activity that we are 
certain, we can also factor those into the model too. So it's a 
combination of both.
    Mr. Hurd. Good copy. If Madam Chairwoman would indulge me 
with 1 question to you, Mr. Wagner. Internal checkpoints, there 
are a number in Texas. How is the staffing decided at those? 
Have studies been done at peak times? Because one of the things 
that I frequently hear from folks is on Friday afternoon, and 
Sunday mornings, the internal checkpoint, it takes long to get 
through that than if you were trying to cross the border. I am 
interested in looking at, you know, are there times when we can 
ensure we have, you know, all hands on deck in order to 
facilitate that travel?
    Mr. Wagner. Yeah. I will have to get back to you on that. I 
mean, the Office of Border Patrol handles the interior 
checkpoints. I mean, we do a lot of work with them from the 
ports of entry lining the technology and communicating back and 
forth. But let me get back to you with a better answer on how 
they determine the staffing for those.
    Mr. Hurd. Good copy. I yield back the time I do not have.
    Ms. McSally. Thank you. The Chair now recognizes Mrs. 
Torres from California.
    Mrs. Torres. Thank you. I want to make sure that our panel 
truly gets a good picture of how concerned we are about the 
staffing issues that you are facing. You can have a recruitment 
center across every State, across every city, across every 
military branch, and we will only be wasting money if we are 
not able to retain people because of the work environment that 
you are providing for them.
    I've heard directly from CBP employees, that have been 
given absolutely no notice, and been sent from LAX to our 
Southern Border. For 17\1/2\ years I have worked in a 
paramilitary organization. I understand that it is a lifestyle, 
that weekends, forced overtime, and holiday work and nights is 
part of the job. That is why it is a lifestyle and not just a 
job.
    But it is unacceptable when we are asking single moms, 
single dads, to abandon their children without any notice for 3 
months. That is unacceptable. Certainly you would not want to 
do that or want to have that job. So if we are not able to 
staff people because we are overwhelming them on background 
checks, on other types of testing that are not applicable to 
the job, I think this is time for a serious revision of this 
hiring process.
    I hope that today when you leave this hearing you don't 
just turn the page and go on about your bureaucratic, you know, 
way of doing business, and that you actually take a serious 
look at how you are impacting families and my constituents. Not 
just the employees, but also how that is impacting our 
airports.
    I have the Ontario International Airport in my district. 
This is a small airport. Currently they have 16 arriving and 16 
departing international passenger flights per week on 2 
carriers. But CBP Officers are deployed to Ontario as an as-
needed basis and not stationed there. How is the staffing 
shortage affecting smaller airports? How can we work together 
to correct this problem?
    I remember several years ago when a carrier had to--they 
had to do a layover at Ontario Airport. The passengers waited 
16 hours because they were waiting for CBP personnel to come 
from LAX. That is unacceptable. That is not the business model 
that we want to see.
    Can you tell me how this is impacting our smaller airports, 
your lack of ability to hire people?
    Mr. Wagner. Sure. I agree with you on both points. If I 
could address the temporary duty situation first in San Diego 
and the port of San Ysidro. We have deployed 197 employees to 
date. The procedures we use to do that, something we have 
negotiated with the National Treasury Employees Union is we 
take volunteers first. Out of the 197, 194 of them have been 
voluntary assignments. There were 3 employees from the Chicago 
field office that were involuntary assigned to that. Now, as we 
go to the next round, and as we hit summer, I imagine that 
number will increase. But these are the negotiated provisions 
by which we make those assignments.
    Now, out of the people that are there, 27 of them are--
have, asked to extend and go into the second round. We have had 
a handful of employees want to transfer there permanently. I 
did that. I went from New York City down to Laredo, Texas on a 
TDY----
    Mrs. Torres. I have a limited time, sir.
    Mr. Wagner. I ended up staying.
    Mrs. Torres. Excuse me. I have limited time here. What I am 
telling you is that the employees that I heard from are not--
are telling me that you have run out of volunteers. So when you 
run out of volunteers, you are forcing people to either 
continue their deployment there where you have transferred them 
or you are deploying new bodies.
    So I would like to go on to continue to ask you about--
specifically about how this is impacting my airport in my 
community. As part of the new strategic business plan for 
Ontario, expanding airline service is a top priority. As part 
of this initiative, the Ontario International Airport Authority 
has identified opportunities for new and increased services to 
Mexico, Central America, Asia, and the Pacific Rim, as well as 
western Canada. However, to capture those opportunities, 
Ontario needs a commitment for more on-site CBP personnel. How 
is that going to happen under this environment that you have 
created?
    Mr. Wagner. It is very difficult for us to do that. We have 
service requests for multiple small to mid-size and the large 
airports for increased service. We have John Wayne, we have 
Melbourne, we have Reno, we have Pittsburgh, we have San Diego. 
All these airports have been in to ask us for increased 
service, and including Ontario. So we do our best to balance--
the good part about Ontario is we have a large pool to draw 
from, from LAX, to provide that.
    There is other options that they have available with the 
reimbursable services agreement. They can go with the user-fee 
status, and there are other opportunities for them to be able 
to provide some of those costs that fit into their business 
model. There is also technology that they can choose to deploy. 
They can purchase automated passport control kiosks. They can 
help us do our job more efficiently too. So it is continued 
discussions with them on how best to provide that service.
    Mrs. Torres. I am out of time. I yield back the rest.
    Ms. McSally. Thank you. Mr. Higgins, did you want to get--
--
    Mr. Higgins. Yeah. I ask unanimous consent for the 
gentleman from New Jersey, Mr. Payne, to sit and question the 
witnesses at today's hearing.
    Ms. McSally. Without objection, Mr. Payne is recognized for 
5 minutes.
    Mr. Payne. Thank you, Madam Chair. To the Ranking Member, I 
appreciate the opportunity to be here with you.
    I am the Member of Congress that has the Port of Newark and 
Newark National Liberty Airport in my district. Customs and 
Border Protection Officers at New York airport clear up to 
20,000 passengers every day. At the Port of Newark, one of the 
busiest ports on the East Coast, agricultural specialists 
inspect imported food items, marble slabs, tiles, and wood 
packing material, all of which can carry insects and other 
pests that can harm domestic agriculture. So I have a question 
for the entire panel.
    We all know there is a severe shortage of agricultural 
specialists at Newark's port of entry, in the neighborhood of 
around 30. How does CBP propose to fund the hiring of 631 
additional CBP agricultural specialists as called for in your 
agency's own agricultural RAM?
    Mr. Wagner. So I believe in the--so we have the agriculture 
resource allocation model. It is about 723 employees when you 
factor in supervisors into that number. I believe in our 2017 
budget, and I will have to verify the number, 100 or so of 
those positions would be provided for.
    Now, with the new agriculture user fees that went into 
effect, we are looking at the collections that are coming in 
and putting together the strategy on how to hire the balance to 
reach that number.
    Mr. Payne. So at this point you say you have the resources 
to get 100?
    Mr. Wagner. I believe we put into the 2017 budget proposal 
it is 100-and-something agriculture specialists that would be 
proposed to be funded. But I will get you that exact number.
    Mr. Payne. Okay. But am I off base with the 631 that are 
needed?
    Mr. Wagner. Right. There is still a large gap that would 
remain.
    Mr. Payne. So what is the plan moving forward in order to 
fill that gap?
    Mr. Wagner. So as we look at the new agriculture user fees 
that we collect, we would look to use those to support 
additional positions. So we are looking at--the new fee 
schedule just went into place earlier this year. So looking at 
the increase in collections in those different fees and what 
funds might be available then to fund additional positions.
    Mr. Payne. You know, what factors are considered when 
determining staffing levels for particular ports of entry? How 
do they vary by type of port of entry? What trends are you 
noticing for northern or coastal ports of entry compared to 
those on the Southwest Border?
    Mr. Wagner. So our workload staffing model, what we do is 
actually take all of the different tasks an officer or 
agriculture specialist does each day, the time involved it 
takes to do each one of those tasks. Then we multiply it by how 
many times it is typically done at that particular port of 
entry, and we come up with the amount of work hours needed to 
run that port. Divide that by the available work hours of an 
employee, and we come up with a staffing number. That is 
tailored to each specific port of entry on a basis of an 
assessment of this very specific workload that goes there. We 
use that, then as the guide to judge what is the right amount 
of staff to put at each port of entry, and then adjust that 
seasonally as we see the traffic and workload conditions 
dictate.
    On your other question, what we are seeing is an increase 
in travel and trade. Commercial air travel at the commercial 
airports was up 5-point-something percent last year. It is 
tracking at 7.8 percent growth this fiscal year. Land border 
traffic, we have seen a small decrease on the Northern Border, 
that could tie into the Canadian dollar, and less Canadian 
visitors coming in, but we have seen a small decrease. We have 
seen somewhat of a recovery on the Southwest Border, though, 
with the passenger vehicle and the pedestrian traffic 
increasing slightly, 1 to 2 percent last year into this year.
    Mr. Payne. Okay. As I wrap up, how does CBP assess risk and 
prioritize infrastructure improvements across air, land, and 
sea ports to ensure that the investments that go into the 
ports, the investment goes into the ports with the greatest 
needs?
    Mr. Schied. So we have got a strategic resource assessment 
process that we use particularly for the land ports of entry. 
Each of the environments: Land, sea, air, has a slightly 
different approach. They have different authorities and 
different ownership models to them. But for the land ports of 
entry, we use the strategic resource assessment process.
    For the airports, that is generally free space that is 
provided by the airports to CBP. So in those cases we are 
working with the local airport authorities on their plans for 
modernization of those ports. We have--we provide to them a 
series of requirements that we look to have included in our 
inspectional facilities at the airports. The same is true with 
the seaports.
    Mr. Payne. Well, thank you. I would like to thank the Chair 
for indulging me, and the Ranking Member allowing me to come 
over and ask a few questions. Thank you.
    Ms. McSally. Absolutely. All right. We are going to do 
another round here.
    I want to transition to the ports of entry, especially 
focus on the land ports of entry and the dire need to upgrade, 
expand, and modernize them. As many of my colleagues have 
mentioned, the border provides challenges for security, but 
also provides opportunity for commerce which is tied to our 
economy, growth of jobs. So we have got to figure out how to be 
able to let the good stuff in and keep the bad stuff out. The 
infrastructure is a main facilitator or barrier to that. We see 
that in my community, and many of us have talked about that 
already.
    Many Members, including myself, are concerned about the 
prioritization process. It doesn't seem totally transparent to 
us or understandable. I mean, I hear about a capital investment 
plan. I hear about a strategic resource assessment process. Mr. 
Gelber, you talk about a border master planning process. This 
is like making--this is a bureaucracy headache. It doesn't seem 
very obvious what the process is to us, what the prioritization 
and the criteria are. We want to make sure that it reflects 
common-sense criteria, because how you measure and rank order 
things obviously can determine the outcome, whatever criteria 
that you are using. You know, the obvious things of wait times 
and the amount of traffic that is going through and increasing 
seem to be obvious. But as we have mentioned here already, the 
opportunity cost of what is not coming through, how people are 
changing their behavior, businesses are not growing.
    We hear about this all the time in our community. 
Businesses that want to expand, but because they know they are 
bottlenecked related to coming through the Douglas port of 
entry, they are not going to be able to expand, people that are 
choosing not to come over and spend money or shop, because time 
is money.
    So how do you measure opportunity costs? How do you measure 
whether you have a partner on the Mexican side as well related 
to the government or land owners? Talk me through this process 
and what can we do to make it more transparent and 
understandable for us.
    Mr. Schied. Well, I will start with that and then throw off 
to Mr. Gelber. So, again, the different environments, and you 
focused specifically, I think, on the land ports of entry so 
that is where I will focus----
    Ms. McSally. Yep.
    Mr. Schied [continuing]. The assessment, starts with the 
strategic resource assessment. So what that is, is CBP 
personnel going to the ports of entry, literally going through 
in a checksheet-type fashion and assessing the infrastructure 
as it exists. Walking around actually looking at the facility, 
how the traffic flows through the facility, looking at issues 
like the building systems. Is the facility basically working or 
not working. Also interviewing the staff to find out what is 
going on with that facility. That gives us basically the 
foundation for the existing facilities, what is going on there.
    We do work in the regional planning. So we do take into 
account--try and factor in, is there projected workload growth 
at that location? Try and factor in do the Mexicans or the 
Canadians have a project that would need to work with you on 
that? What are the local highway and transportation plans? So 
we start with that basic resource assessment, then factor in 
what else is going on in the environment.
    Ms. McSally. Do you include local stakeholders in that or 
just the staff?
    Mr. Schied. Local stakeholders. So most we are trying to 
get the various locations, we are trying to plug into the 
regional planning, which usually is going to involve the local 
community and the Department of Transportation----
    Ms. McSally. Okay.
    Mr. Schied [continuing]. As a part of that conversation.
    Ms. McSally. How often do you do this? Once a year when you 
update your 5-year plan or----
    Mr. Schied. So I would say a lot of the conversation is on-
going. The strategic resource assessments, and actually going 
out and doing that kind of physical inspection, only happens 
every few years.
    Ms. McSally. Okay.
    Mr. Schied. The actual working with GSA on how much, you 
know, what the top priorities would be is an on-going basis but 
results in an annual plan.
    Ms. McSally. Do you know the last time that you did that at 
the Douglas port of entry?
    Mr. Schied. Yeah. Last year.
    Ms. McSally. Okay.
    Mr. Schied. We actually did the walk around.
    Ms. McSally. Two-thousand fifteen. Okay. Great. As you 
know, the Douglas port of entry has needed modernization for 
many years. From our perspective, it has tremendous shortfalls 
and limitations to it. We have struggled to find the financing. 
Where is the Douglas port of entry on the prioritization list? 
Could you please provide the committee with the most recent 
capital investment plan? Will you guys please share future 
iterations of the plan with this committee, given the 
significant interest of our Members? We would prefer not to try 
and extract it from you, but actually deliver it to us in a 
timely manner.
    Mr. Schied. Sure. So we won't provide the list--the 
authorization bill that Congress recently passed actually 
requires us to provide that to you. So, of course, we will do 
that.
    Ms. McSally. So when are we going to get it?
    Mr. Schied. So I think that--I forget what the exact time 
frame was after enactment. I think it was about 3 months after 
enactment. So it would be later this spring or summer, is when 
owe it to you, and that is when we will deliver it.
    Ms. McSally. Okay. I mean, other committees have it 
already. So we are just wondering when are you going to deliver 
it to this committee.
    Mr. Schied. So the other--so that would be a different 
report. That would be the----
    Ms. McSally. Okay.
    Mr. Schied [continuing]. Five-year or the annual 5-year 
plan.
    Ms. McSally. Okay.
    Mr. Schied. Again, we can work with the other committees to 
make sure there is no objection on their part to us sharing 
that information with this committee as well.
    Ms. McSally. Okay. Can you share where Douglas is on your 
prioritization plan and how you came to that conclusion?
    Mr. Schied. Sure. So Douglas will be in the upcoming plan. 
We recognize that as one of the top infrastructure needs that 
we have. As you have mentioned, the facility is very 
inadequate. It is old. It fails on multiple counts to be the 
kind of facility that we want to provide. In the upcoming 5-
year plan, I expect Douglas will be a part of one of the 
projects that we seek funding for. It is one of our higher 
priorities.
    Ms. McSally. Upcoming meaning the one that you have 
produced already and delivered to the other committees----
    Mr. Schied. So the 2016 plan has not yet come up to the 
committees.
    Ms. McSally. Okay.
    Mr. Schied. So that is working its way through that black 
hole that you referred to earlier. Douglas is on that list.
    Ms. McSally. Okay. We look forward to following up with 
you. Again, we don't have time in this just 5 minutes. But I 
really look forward to working with both GSA and CBP to better 
understand the criteria that you are using so that we can, you 
know, feel more confident that it is a transparent process.
    Again, we hear anecdotes that sometimes if, you know, local 
governments are helpful or not helpful, there is some 
subjective elements there that move projects up or down the 
list. We just want to understand what is objective, what is 
subjective so that, you know, we can have confidence in the 
prioritization process. I know I am way over my time again. But 
I have lots more questions. But I am going to hand it over to 
Mr. Higgins for a little while.
    Mr. Higgins. Thank you very much.
    I see that the infrastructure guy isn't here. 
Infrastructure is obviously a, you know, very important piece 
to all this. I am amazed when I read this story about the new 
international bridge being constructed between Detroit, 
Michigan, and Windsor, Ontario, and the fact that the entire 
project is being financed by the Canadian Government. A 6-lane 
bridge, and the Canadian Government is also financing the 
entire cost of the American plaza.
    Total project cost is $2.3 billion. You know, can you 
explain to me--can anybody explain to me how this happens, and 
why is there seemingly, at least in this project, and 
presumably generally a lack of United States Government 
commitment to building these critical border crossings?
    Again, that profoundly--you know, all of the, you know, the 
information coming from the State of Michigan, from the city of 
Detroit is that how this international bridge crossing will 
profoundly influence favorably the economic prospects of the 
State of Michigan and the city of Detroit. Yet, from what I am 
reading, there doesn't seem to be any U.S. financial commitment 
to the building of this critical international border.
    Mr. Schied. So I would start with the funding for that 
project is going to come from the tolls that are collected, and 
so a lot of the privately-owned infrastructure, there is tolls. 
So there is a revenue stream. I think that the position of the 
U.S. Government was that that revenue stream could pay for the 
plaza. In terms of commitment, though, the U.S. Government is 
going to put in substantial commitment to this project because 
we will be staffing and operating that facility.
    Mr. Higgins. You are staffing and operating a facility 
anyhow. I am not talking about the staffing. I am just talking 
about the infrastructure commitment to these kinds of projects. 
I do understand that the money will be recouped from the 
recurring revenue that exists from tolls.
    But this project has been delayed substantially because of 
lack of interest, lack of will, on the part of the U.S. 
Government to contribute. I mean, you know, Canada is a country 
of 30 million people. The United States is a country of 323 
million people. The economy of our Nation is $19 trillion. Our 
budget is $4 trillion a year. Yet there is no infrastructure 
investment into this bridge that, to me, speaks to, again, a 
larger problem relative to ports of entry throughout the entire 
Northern Border.
    Mr. Schied. So I would agree with you on the fact that we 
do have a challenge on getting the resources necessary to 
rebuild a lot of the ports of entry on the Northern Border.
    So, I mean, through the--I think we, you know, from a CBP 
perspective recognize that the privately-owned facilities, as 
well as, the publicly-owned facilities, need substantial 
infrastructure investment. Where we can find a private entity 
or a local bridge authority that will work with us to make 
that----
    Mr. Higgins. But don't you think it speaks to a larger 
problem when the Canadian Government is financing not only the 
full cost of the bridge span between Windsor, Ontario and 
Detroit, Michigan, but they are also financing the full cost 
and the build-out of the American plaza?
    Mr. Schied. I think it does speak to the challenges that we 
face----
    Mr. Higgins. Yeah well.
    Mr. Schied [continuing]. In funding the infrastructure. I 
mean, we have got, as I think was alluded to in the 
Chairwoman's opening statement, a $5 billion need in terms of 
recapitalization. So we do face a significant challenge.
    Mr. Higgins. All right. So CBP has projected that $6 
billion over the next 10 years would be needed to modernize the 
existing inventory of land ports of entry to recent security 
and facility demands.
    How much of this money is budgeted? I mean, we do a 
transportation bill that is typically a bill that is a 5-year 
authorization. How much of this $6 billion is funded in that 
bill, or does it come from someplace else? If it comes from 
someplace else, where does it come from?
    Mr. Schied. So of that figure, most of it would need to 
come from the Federal Buildings Fund because most of those 
ports of entry, particularly the larger ones, are GSA-owned 
facilities.
    Mr. Higgins. Okay. Let me just--I will finish up here 
because I am over. But, you know, when we talk about the 
importance of cross-border movement, in terms of National 
security and in terms of economic benefit, at the very least to 
those communities that are specifically affected by those land 
ports of entry, we are falling significantly behind. This is 
not a challenge. This is a crisis.
    Again, I can tell you that, you know, look at behavioral 
economics. You know, when we are confident, we move. When we 
are not, we don't. Here is what I know the situation in terms 
of behavioral economics at the Peace Bridge. I suspect that 
this is pervasive throughout other congested land ports of 
entry. That people have adjusted their economic movement, their 
behavior, to do what they refer to as avoidance. They avoid a 
situation that they are not certain of because there is no 
reliability, there is no predictability. The only way that you 
build in reliability and predictability is to build in 
capacity.
    You know, the Peace Bridge in Buffalo was built 89 years 
ago. It is the busiest Northern Border crossing between the 
United States and Canada. Guess what? It is 3 lanes. The 
population of Southern Ontario since that time has increased by 
400 percent. So 50 percent of the time you are down to 1 lane 
because they use an alternating lane system. I know anecdotally 
from people who I know and my experience myself is you don't go 
near the Peace Bridge unless you are absolutely--you have no 
other choice. That is the wrong message to be sending, 
particularly when you look at--the relationship at the Southern 
Border is different. I understand that. But the relationship at 
the Northern Border is very different as well. For the border 
communities that depend on predictable reliable access into and 
out of southern Ontario, again, a population center of 12 
million people projected to grow another 3 million over the 
next decade, and you have that avoidance, we are really hurting 
ourselves economically, and we are compromising our National 
security.
    Ms. McSally. Thank you, Mr. Higgins.
    I do want to follow up on the source of funding. Because 
right now these very important ports of entry, land ports of 
entry are included into the Federal Building Fund. So we are 
prioritizing between something that is so important for our 
security and our commerce with, you know, office buildings for 
some bureaucracy for people to come work, which is--you know, 
it is also important that people have a place to come to work. 
But to me should not be in the same category.
    Should we be somehow moving ports of entry into a different 
funding category so it is not mixed in with the Federal 
Building Fund, and it is more a part of our infrastructure?
    Mr. Gelber, do you have any comments on that?
    Mr. Gelber. From GSA's perspective, we would prefer to keep 
the CBP inventory as part of the larger Government real 
property inventory, so that we can allocate these dollars in 
the best way that addresses the entire Executive branch's 
needs.
    On an annual basis, we allocate approximately $150 million 
of funding for CBP projects. This fiscal year we are working on 
the Alexandria Bay crossing in New York as well as the Columbus 
crossing in New Mexico. We have had a request for the Calexico 
crossing in California, and then fiscal year 2018 our request 
will be for the Alexandria Bay crossing in New York.
    In the out-years of our 5-year plan we set aside in effect 
$150 million for funding for CPB's projects once we receive 
their 5-year plan. So while it is a difficult issue to balance 
the needs of a variety of Federal agencies, we still believe it 
is the best way to approach the Government's real property 
inventory.
    Ms. McSally. Mr. Schied, do you have a similar opinion or 
something different?
    Mr. Schied. I would just appreciate as much money out of 
the Federal Buildings Fund as CBP can get to modernize its 
infrastructure.
    Ms. McSally. Okay. Great. I also want to ask--often you are 
entered into long-term leases for some of these structures. You 
know, one of the attempts, just as an example, that Douglas 
used to try and fund them was through a bond. The community was 
literally going to mortgage its future for the land and any 
investment and then was asking to have it be leased back. But 
it was denied because it wasn't under the current public/
private partnership, which is--I get that.
    But is there not a potential model to also lease back from 
local communities that are willing to do bonds to invest in 
this infrastructure because they see the benefit? What new 
authorities would you need, and is that something you would be 
willing to entertain if we gave you those authorities?
    Mr. Gelber. That would be something GSA would be interested 
in discussing with the committee. Currently the--well what I 
will refer to as the Government accounting rules state that for 
a lease of that nature that you are referencing requires to be 
accounted for all in the first year of the lease. So it is a 
significant hit, if you will, on the Federal budget for that 
one year even though the payments will occur over a 20, 30--or 
20- or 30-year payment period.
    Ms. McSally. But you still have long-term leases with other 
entities. Right?
    Mr. Gelber. We do. Some of those leases are treated as what 
I refer to as operating leases. Some other leases incur the 
budgetary scoring rules that would make it a little more 
difficult to enter into a lease in the manner in which you are 
speaking.
    Ms. McSally. Mr. Schied.
    Mr. Schied. Yeah. I would add to that, part of the public/
private partnership dialogue that we want to have, and part of 
I think the advantage of that kind of a program is it does let 
the local community approach us with ideas and commitments that 
they would be willing to make. I think as we--we are only going 
through this the second--this is the second round that we are 
going through.
    So I think both us and the local communities are still in a 
bit of a learning curve as to sort of what is acceptable, what 
is not acceptable, what is legally permissible, what is not. I 
think as we continue to work through that we might have some 
further ideas about, you know, future changes to language or 
authorities that would be useful. It also helps us to educate 
the local communities about how they might structure a project 
that when they do bring it to us it is something that we would 
be able to accept.
    Ms. McSally. Okay. Great. I just want to close with a 
couple final questions on manning, if you don't mind, related 
to the manning.
    You know, Mr. Reardon, I heard your--thanks for your 
testimony and the perspectives of your--the workforce and the 
low morale. I mean, I think just from my military experience, 
oftentimes low morale comes from a variety of different root 
causes. Sometimes it is hardship circumstances. Sometimes it is 
leadership culture. There is a variety of different things. I 
think of some of the situations you are talking about. But we 
have men and women in uniform, in our military, that are often 
told on very short notice to deploy for a year over and over 
again away from their families. They make it work. Morale is 
often very high in very arduous circumstances because we are a 
part of something greater than ourselves.
    So I don't believe those that are your workforce are just 
cash-focused. My hope would be that that is not true. That 
there is hopefully a deeper commitment to service and to making 
a difference, being a part of something greater than 
themselves. There is maybe a variety of other issues that are 
associated with this, that hopefully it is not just I want more 
cash to be able to, you know, do this particular role. I think 
these things sometimes can be complex cultural issues.
    But I just want to clarify that. Do you believe there is a 
cultural issue or leadership issue, or is this just a monetary 
issue for the workforce?
    Mr. Reardon. Chairman, thank you for the question. No. I 
absolutely do not for one moment believe that it is a monetary 
issue alone. I think that rather there are a wide variety of 
issues at play here. I do think that there is a leadership 
issue. I think that oftentimes our front-line employees are 
not--they are not involved in decisions that are made. They are 
not asked their opinions on decisions that are made. I think 
that is a problem.
    I think it is a problem also that when our members believe 
that they do really outstanding work, and they do outstanding 
work--and let me just for the record say that our CBP 
employees, they without question, do this work and are proud to 
do this work and proud to do it for this country. There is no 
question about that many of them are former military. So I want 
to underscore how critically important the work is that they do 
and how committed they are to doing the work.
    But I think, you know, I mentioned in my earlier comments 
about employees feeling valued, you know, and the whole issue 
certainly in the military related to esprit de corps, you know, 
those kinds of things, as you well know, are important. So if 
there is a disconnect between the leadership and the front-line 
employees, you have a problem. Oftentimes that goes directly to 
the issue of trust.
    So, you know, you asked if there are other issues at play 
here. I would say absolutely there are. You know, for example, 
we have--someone mentioned, I think Mr. Wagner mentioned 
earlier, you know, the contract certainly that exists between 
CBP and NTEU. We run into situations where certainly in our 
view the contract is not adhered to. You know, those kinds of 
things, when that happens repeatedly, when the contract isn't 
followed, when decisions are made by arbitrators and so on and 
so forth, and then CBP continues to push off, you know, 
reacting to the arbitrator's decision, for example, forever, I 
mean, on and on and on and on, you know, there is a message 
that is sent to front-line employees that we don't matter, that 
we are not valued. So, yeah, I mean, I think there is--I think 
there is a--certainly a cultural issue here.
    Ms. McSally. Mr. Wagner, I want to give you a chance to 
respond.
    Mr. Wagner. Great. Thank you. You know, I agree with Mr. 
Reardon. Our employees are motivated by the mission. They are 
100 percent behind it and dedicated to it and support it. You 
know, it is a great mission to get behind. It is very difficult 
jobs that they have. This--it is a very demanding job, and 
there is a lot of responsibility on the decisions they make day 
in and day out.
    They work in very difficult conditions. They work very 
difficult hours and places, dangerous places. So these things 
do compound themselves. When, you know, when you are short on 
resources and traffic is increasing, and, you know, like any 
large organization, we struggle with communication efforts. It 
does compound itself, and you see these things manifest 
themselves in things like, you know, the scores in the FEV 
survey. But they are an incredibly hardworking group of men and 
women. The sacrifices that they do make I don't think we always 
appropriately recognize. You know, someone has to work 
weekends, someone has to work holidays, somebody works 
Thanksgiving day and Christmas day, and the sacrifices they 
make to miss graduations, birthday parties, anniversaries, and 
a lot of family time and personal commitments, you know, 
someone has to be there. The border has to be open. We just 
can't close on a holiday and say: We will be back tomorrow. You 
don't have that option. So someone has to work.
    We negotiate provisions with the bargaining unit and with 
NTEU on how to fairly select people to work those assignments. 
You know, somebody has got to work overtime on Christmas day. 
It happens. Nobody wants to volunteer. But we have a system 
that the low earner on a list, and it is the base of earnings 
gets stuck with the longest job, in some sense of fairness and 
equity. We try to balance that. It is tough to explain that to 
the person who is getting forced to work, the person that 
involuntary gets sent TDY to San Ysidro said: You know, we have 
23,000 CBP Officers. Why do I have to go? Can't find anyone 
else out of all--sometimes it is difficult to explain. We do 
struggle with that communication. But I agree 100 percent. Our 
employees are extremely hardworking and are motivated. Very 
successful at what they do in a lot of very, very challenging 
circumstances.
    Ms. McSally. Great. Thanks. Just please indulge my time 
here. Now that I have got you all here I do have a few more 
follow-up questions just, again, related to the manning and 
personnel.
    One is the, you know, the mandatory age 57 retirement which 
backs up to a 37 is the highest age, although that can be 
waived, and I understand is waived for veterans. For me, I 
think this is an artificial number. I mean, this is sort of 
ageism in some regard that you are looking at people, you know, 
based on just their age versus their experience. I think about 
some of the veterans coming out of the military, if you are an 
officer, you are retiring at the earliest at 42, 43. Again, I 
know there is exceptions to every rule, but is this a barrier 
as you are trying to fill these qualified positions? It just 
seems to me that there should be--you should look at people as 
individuals and not these blanket age rules. You know, is there 
something that we can do to help with that based on the current 
mandatory 57 retirement.
    Also, it was noteworthy to me--I mean, we were talking 
about these thousand and thousands of people that you are 
hiring--or that are applying that is coming down to, you know, 
just trying to fill these positions. I think in your testimony 
you said 40 percent of the applicants don't even show up for 
their interview or their, you know, next stage in the 
application, which is troubling to me. So we obviously--all 
your efforts are trying to find the right people to get into 
step 1 so you are not wasting a lot of time casting a huge net.
    I mean, what else can we do to assist you in that? Are 
there other things that we need to help fast-track? Or is this 
just all for you to internally address?
    So those 2 quick questions.
    Ms. Jacksta. Thank you, Congresswoman. I think you will be 
pleased to know that the commissioner has recently raised the 
entry age for law enforcement occupations from 37 to 40, and 
also from the mandatory retirement age from 57 to 60. He has 
the authority to do that for new employees and front-line 
occupations. He will do that for a 3-year period.
    Ms. McSally. Okay.
    Ms. Jacksta. So I think that is very, very good news and 
specifically addresses your concern.
    Ms. McSally. For a veteran can that be higher than that? 
Because, again, the earliest an officer can retire is usually 
at 42 from the military.
    Ms. Jacksta. I will take that back and research that for 
you.
    Ms. McSally. Okay.
    Ms. Jacksta. With respect to the entrance exam, what we 
have found is that we lose 50 percent of our applicant pool at 
the entrance exam, and we want to find out why is that 
happening? We implemented a survey. Thousands of people 
responded. We are in the process of assessing what the results 
of that survey indicate.
    Early analysis tells us a couple of things. First is upon 
further reflection the applicant determined maybe I don't 
really want to pursue that law enforcement career. We have an 
11-step process that is fairly rigorous, intentionally so.
    Second is polygraph acts as somewhat of a deterrent. When 
they recognize--when they get scheduled for their entrance exam 
and they see all the other requirements and then they finally 
realize that the polygraph is one of those requirements, they 
say: Thank you, but no thank you. So certainly as we discussed 
earlier this morning, we are certainly willing to have a 
dialogue with you and other Members of Congress in that regard 
and any flexibilities we may want to employ going forward.
    With respect to the recruitment, I think this is one of the 
No. 1 areas where we need to focus our efforts. We have used 
data, 5 years' worth of data, to specifically identify areas in 
the country where we have been successful previously in 
recruiting officers and agents into front-line positions. That 
data has been provided to every field office in every sector in 
the country. That is 40 different locations. Each sector chief, 
and each director of field operations, has specific goals and 
objectives for targeting in those local areas based on what the 
data tells us. So we are hopeful that that targeted recruiting 
strategy will bear some positive news for us. I will share with 
you that early indications are somewhat positive in terms of 
our qualification rates, and the hiring process are starting to 
see a little bit of an uptick for the good. I think it is too 
early to tell whether or not that targeted effort is really 
producing what we want. But we are cautiously watching and we 
are cautiously optimistic.
    Ms. McSally. Can you clarify that the 161 days or so that 
it is now taking, is that just for where we have hiring hubs, 
or is that the average for all hires?
    Ms. Jacksta. That is a pilot that we implemented for hiring 
hubs. Our goal by the end of this fiscal year, however, is to 
take a look at the entire applicant pool and get at least 50 
percent of that applicant pool into some type of hiring hub 
construct.
    Ms. McSally. So what is the current average for the hiring 
time?
    Ms. Jacksta. Currently average is about a year-and-a-half.
    Ms. McSally. It is still up to a year-and-a-half. Oh, my 
gosh. All right. Get on that.
    Ms. Jacksta. Yes, ma'am.
    Ms. McSally. One last question is, I know the polygraph is 
sort of a bottleneck, obviously, for resources and the specific 
requirements for that. I am constantly talking about this in 
other venues. Are you looking at other deception detection 
technologies before the polygraph, early on as somebody is 
doing the initial interview or filling out a form to just be 
able to identify whether, you know, somebody is just definitely 
going to be ruled out that is much cheaper off-the-shelf 
technology that might be able to help you filter quickly?
    Ms. Jacksta. I will take the specific technology question 
back for the record. I will provide a response to you.
    What I can share is that there is a pre-polygraph interview 
process that occurs before someone actually sits in the chair. 
In a number of different cases we have seen that people have 
admissions during that process which we know ultimately will 
render them unsuitable for employment. When that occurs, we are 
able to make that judgment call earlier in the process than we 
did historically. As a result, we have been able to streamline 
the process significantly.
    Ms. McSally. Got it. Yeah. I would love to follow up with 
you. I mean, I have constantly talked about some technologies 
that have come out of the University of Arizona. But there are 
others around the country that are off-the-shelf that can 
really help you, I think, quickly identify whether somebody is 
being deceptive when they are filling out an on-line form or an 
in-person interview, just sensing other things that is not a 
full-up polygraph. So I would be happy to follow-up with you as 
well on that.
    Okay. Thank you for all your patience. I want to thank the 
witnesses for all of your valuable testimony and answers to 
your questions, and the Members for their questions. The 
Members of the committee may have some additional questions for 
the witnesses, and we ask that you will respond to these in 
writing. Pursuant to committee rule 7E, the hearing record will 
be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
